U. S. Government Printing Office • Office of Inspector General

S e m i a n n ua l R e p o r t t o C o n g r e ss
                  April 1, 2010, through September 30, 2010




              50% Black + 100% Black




              PMS 540 + 100% Black




             White (version for reverse)
The U.S. Government                                        The Office of
Printing Office                                            Inspector General


F                                                          T
        or well over a century, the U.S. Government                he Office of Inspector General (OIG) was cre-
        Printing Office (GPO) has fulfilled the needs of           ated by the GPO Inspector General Act of
        the Federal Government for information prod-               1988—title II of Public Law 100–504 (October
ucts and distributing those products to the public.        18, 1988) (GPO IG Act). The OIG at GPO is dedicated to
GPO is the Federal Government’s primary resource for       acting as an agent of positive change—changes that
gathering, cataloging, producing, providing, authen-       will help GPO improve its efficiency and effectiveness
ticating, and preserving published U.S. Government         as the Agency undertakes an era of unprecedented
information in all its forms. GPO also produces and        transformation. Through evaluation of GPO’s sys-
distributes information products and services for each     tem of internal controls, the OIG recommends poli-
of the three branches of Government.                       cies, processes, and procedures that help prevent and
      Under the Federal Depository Library Program,        detect fraud, waste, abuse, and mismanagement. The
GPO distributes a wide range of Government publi-          OIG also recommends policies that promote econ-
cations in print and online to more than 1,250 public,     omy, efficiency, and effectiveness in GPO programs
academic, law, and other libraries across the coun-        and operations.
try. In addition to distributing publications through            The OIG informs the Public Printer and Congress
that library system, GPO provides access to official       about problems and deficiencies as well as any posi-
Federal Government information through public              tive developments relating to GPO’s administration
sales and other programs, and—most prominently—            and operation. To accomplish those responsibilities,
by posting more than a quarter of a million titles         the OIG conducts audits, assessments, investigations,
online through GPO Access (www.gpoaccess.gov).             inspections, and other reviews.
      Today more than half of all Federal Government
documents begin as digital products and are pub-
lished directly to the Internet. Such an evolution of
creating and disseminating information challenges
GPO, but it has met those challenges by transform-
ing itself from primarily a print format entity to an
agency ready, willing, and able to deliver from a dig-
ital platform a high volume of information to a mul-
titude of customers.
      Although a transition to digital technology
changes the way products and services are created
and offered, GPO strives to continually satisfy the
requirements of Government and accomplish its
mission of Keeping America Informed.
con t en ts




Message from the Inspector General . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3
Highlights of This Semiannual Report . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
OIG Management Initiatives . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6
Personnel Updates . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
Council of the Inspectors General on
Integrity and Effiency . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 8
Review of Legislation and Regulations . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 8


GPO Management Challenges . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9


Office of Audits and Inspections . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21
A.	Summary of Audit and Inspection Activity. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                          21
B.	Financial Statement Audit. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                         21
C.	Audit and Inspection Reports . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                 22
D.	Ongoing Work. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .     24
E.	Status of Open Recommendations. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                            24

Office of Investigations . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 31
A.	Summary of Investigative Activity. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                         31
B.	Types of Cases. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .   32
C.	Summary of Investigative Accomplishments. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                32
D.	Other Significant Activities. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                         36

Appendices . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37
A.	Glossary and Acronyms. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                       37
B.	Inspector General Act Reporting Requirements. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                     40
C.	Statistical Reports . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .         41
	Table C–1: Audit Reports with Questioned and
	Unsupported Costs . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                41
	Table C–2: Audit Reports with Recommendations
	That Funds Be Put to Better Use . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                      42
	Table C–3: List of Audit and Inspection Reports Issued
	 During Reporting Period. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                         43
	Table C–4: Investigations Case Summary . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                          44
	Table C–5: Investigations Productivity Summary. .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                        46
D.	Peer Review Results. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .             47


                                        S e m i a n n u a l r e p o r t t o c o n g r e ss                                                                             1
      M e s sag e f ro m t h e
      Inspector Gener al




This Semiannual Report to Congress covers the activities of the GPO Office of
Inspector General for the period April 1, 2010 through September 30, 2010.
     During this reporting period, our Office of Audits and Inspections contin-
ued its oversight activities of the implementation of the Federal Digital System
(FDsys), as well as the Public Key Infrastructure, which supports critical, digital
agency functions. The OAI notes 48 open recommendations from previous report-
ing periods requiring management’s attention.
     The Office of Investigations continues to see growth in the area of contract
and procurement fraud, as well as employee misconduct cases. Currently, the OI
has 50 active complaints and investigations in progress, a significant increase
over the last reporting period. In order to meet the increasing demands from the
burgeoning case load, the OI will welcome two new special agents at the begin-
ning of FY 11.
     We continue to evaluate critical issues facing GPO, and have updated the most
significant management challenges, accordingly. Human capital operations and
management continues as a critical challenge to the Agency. We remain hopeful
that a renewed focus on customer-driven solutions and results will bring about
much needed change and direction. Additionally, we note critical developments
with Security and Intelligent Documents that will warrant additional oversight
efforts by this office.
     As the GPO OIG remains committed to quality and accountability, we con-
tinue our own process improvement efforts. As we move into the next fiscal year, the
OIG will undergo peer reviews of our Audit and Investigative functions, as well as
an internal review of OIG operations and procedures. Being mindful of improving
our own operations will only enable the OIG to better fulfill its mission and goals.
     For more information, please visit our website (www.gpo.gov/oig) and, to
keep informed of OIG activities, please sign up to receive automatic email updates.




                                                 J. Anthony Ogden
                                                 Inspector General
                                                 U.S. Government Printing Office




                         S e m i a n n u a l r e p o r t t o c o n g r e ss            3
Hi g h l i g h t s o f t h i s
S e mi a n n ua l R e p o r t




T
         he Office of Audits and Inspections (OAI) issued three new
         reports during this reporting period. Those three reports
         included assessments related to the Independent Verification
and Validation (IV&V) efforts of implementing the Federal Digital
System (FDsys). We also issued an annual report assessing GPO’s Public
Key Infrastructure (PKI) services.
     OAI’s significant accomplishments during this reporting period
include the following:
	Continued to oversee the efforts of American Systems as it con-
●


 ducted IV&V for the public release of FDsys. We issued two quarterly
 reports this period providing observations and concerns on the pro-
 gram’s technical, schedule, and cost risks as well as requirements
 traceability of those risks and the effectiveness of the program man-
 agement processes in controlling risk avoidance.
●   	Issued the results of an annual review conducted under contract
     by an Independent Public Accountant (IPA) on GPO’s PKI ser-
     vices. GPO’s PKI ensures the highest level of protection for elec-
     tronic information that travels over ordinary, nonsecure net-
     works. The IPA issued an unqualified opinion that management’s
     assertion related to the adequacy and effectiveness of controls
     over its Certification Authority (CA) operations is, in all material
     respects, fairly stated.
     The Office of Investigations (OI) opened 8 investigations and 24
complaints for preliminary investigation, while closing 8 investiga-
tions and 29 complaints (10 of which were closed with no action). At
the end of this reporting period, OI had 33 ongoing investigations
and 17 open complaints. Additionally, three investigations and
nine complaints were referred to GPO management for potential
administrative action.
     Of the open complaints and investigations, 27 involve alle-
gations of procurement fraud, which reflects increased OI efforts
to address procurement and financial fraud vulnerability within
GPO. The increase in procurement fraud cases is the result in part




                   S e m i a n n u a l r e p o r t t o c o n g r e ss       5
    of continued OI engagement with management,                     During this reporting period, OALC accom-
    Print Procurement officials, and other acquisitions        plished the following:
    employees.                                                 	Reviewed, edited, and approved four subpoenas;
                                                               ●

         Several ongoing investigations are being con-          reviewed and edited three audit reports and five
    ducted in coordination with the Department of               reports of investigation.
    Justice (DOJ), including its Antitrust Division. As part
                                                               	 Worked with the IG to develop agenda for OIG-wide
                                                               ●
    of those investigations, the IG issued four subpoenas
                                                                 retreat.
    for documents this reporting period.
         OI’s significant accomplishments during this          	Updated the OIG 3-year Strategic Plan for discus-
                                                               ●



    reporting period include:                                   sion with senior staff.

    ●   	As a result of an OI investigation substantiating     	 Supported the IG in his role as the Chair of the
                                                               ●



         that a contractor failed to comply with critical        Legislation Committee of the Council of Inspec-
         contract specifications regarding the security          tors General on Integrity and Efficiency (CIGIE)
         of personally identifiable information (PII), the       in reviewing and analyzing proposed legislation
         contractor agreed to pay a $25,000 settlement of        affecting the IG community, soliciting comments,
         U.S. penalty claims, without admitting wrongdo-         and drafting letters and informal comments for
         ing or liability.                                       Members of Congress.

    	The Agency terminated an employee as a result of
    ●
                                                               	 Hired a law clerk for the summer who worked on a
                                                               ●



     an OI investigation into allegations the employee           variety of legal research projects.
     used or attempted to use her position for personal        	 Supported the procurement of an electronic case
                                                               ●


     financial gain and benefit close friends.                   management system for OI.
    ●   	The Agency terminated another employee after          	Organized a presentation on Whistleblower Pro-
                                                               ●


         OI determined that employee was convicted of           tection Issues for members of the Council of Coun-
         a serious drug offense and initiated an inves-         sels to the Inspector General (CCIG).
         tigation to determine if the employee was sell-       	Acted on a variety of matters as the OIG liaison to
                                                               ●

         ing drugs on GPO property. The seriousness of          the GPO General Counsel and the GPO Office of
         the drug offense coupled with false statements         the Chief of Staff, including support with GPO liti-
         the employee made to investigators formed the          gation and personnel action matters.
         foundation of the successful administrative case
         against the employee.
                                                               OIG Management Initiative s
          OI continues investigations into allegations
    of false statements, false claims, and/or bid collu-       During this reporting period, the OIG held an office-
    sion by GPO print vendors. OI also has the assis-          wide retreat in June 2010 to discuss the vision, direc-
    tance of the DOJ Antitrust Division, which contin-         tion, and goals of the OIG as well as how to continue
    ues to evaluate cases for possible criminal and/or         to enhance, improve, and measure the success of its
    civil action.                                              operations. We have also drafted an updated, 3-year
          The Office of Administration/Legal Counsel (OALC)    strategic plan. We continued to meet with various
    provides legal advice and counsel on issues aris-          business units during the reporting period to deter-
    ing during audits, inspections, and investigations,        mine high-risk areas for the Agency to better focus
    including opinions regarding legal accuracy and suf-       our resources.
    ficiency of OIG reports. OALC manages administra-               During the upcoming reporting period we will
    tive and management issues as well as congressional        work on refreshing our Web site and developing a for-
    and media relations and requests for information.          mal communications plan with the Agency’s Office
    OALC reviews and edits audit, inspection, and inves-       of Communications to help educate GPO employ-
    tigative reports before the IG approves.                   ees and other stakeholders about the role of the OIG,



6   Off i c e o f I n s p e c t o r G e n e r a l
employee rights, and the importance of reporting
wrongdoing and cooperating with the OIG.


Personnel Update
During this reporting period, Patricia Bach and David
Hilburg joined OAI as Senior Auditors. Patricia brings
25 years of audit and accounting experience to the
OIG from the Department of Energy where she was
a Senior Accountant. Patricia previously held audi-
tor positions with the Department of Defense and the
General Services Administration. She has a Bachelor
of Science degree from the University of West Florida
and is a Certified Public Accountant. David brings
more than 6 years of audit experience from the U.S. Air
Force Audit Agency where he was an Audit Manager.
David has a bachelor’s degree from Washington
University and a Master of Science degree from the
Colorado School of Mines.
     On September 30, 2010, Debra Miller, the              David Hilburg joined the OIG as Senior Auditor. Debra
Assistant Inspector General for Investigations             Miller, Assistant Inspector General for Investigations,
                                                           retired after 27 years of federal service.
(AIGI), retired from federal government service.
Debbie began her investigator career in 1977 with
the Florida Auditor General’s Office investigating         with the mirror manufacturer, at the time the larg-
welfare fraud. In 1982, she became a Special Agent         est recovery by the NASA OIG.
with the Environmental Protection Agency’s OIG                  In 1998, Debbie joined the Social Security
where she worked in civil and criminal investiga-          Administration (SSA) OIG as a Regional Special Agent
tions. In that same year, Congress charged that the        in Charge where she oversaw the administrative, oper-
EPA had mishandled the $1.6 billion toxic waste            ational, and management activities of three investi-
Superfund and demanded records from then EPA               gative field divisions. In 2003, Debbie became SSA
Administrator Anne Gorsuch. Gorsuch refused and            OIG’s Contract Fraud Program Manager to initiate
became the first agency director in U.S. history to        and develop a contract fraud investigative program.
be cited for contempt of Congress. As a result of this     In that capacity, she was the lead agent in a successful
scandal, Debbie was involved in highly sensitive           case prosecution against a former owner of a Maryland
investigations of alleged misconduct by an Assistant       security firm, its former Chief Operating Officer, and a
Administrator and a Regional Administrator, which          long-time General Service Administration employee.
led to their resignations and financial recoveries         These individuals pled guilty in a bribery and tax eva-
for the EPA.                                               sion scheme involving federal security contracts worth
     After a brief stint as a Financial Investigator for   more than $130 million. The company provided armed
Blue Cross and Blue Shield of Virginia, she moved to       and unarmed security guards for 18 Federal agencies
NASA’s OIG where she worked until 1998 on sensi-           at 120 installations in 32 States and territories. The
tive and complex criminal and civil investigations.        case is the largest corruption case ever prosecuted in
One significant achievement at NASA was her work           Maryland, in terms of the size of the contracts involved.
as the lead agent on the investigation of the Hubble            As the AIGI at GPO OIG, Debbie was critical in
Space Telescope primary mirror flaw. That investi-         transforming the Office of Investigations. She started
gation resulted in a civil settlement of $25 million       with a staff of three Special Agents and a caseload of



                                                           S e m i a n n u a l r e p o r t t o c o n g r e ss          7
    seven contract and procurement fraud cases. In two              On behalf of the CIGIE Legislation Committee,
    years, she grew the office to seven Special Agents,       the IG wrote letters and communicated with several
    increased procurement fraud investigations more           congressional committees on various legislative mat-
    than 200%, and issued a variety of reports to GPO         ters affecting the IG community, most significantly to:
    management to prevent procurement fraud and               	Convey the views of the IG community on House
                                                              ●

    increase protection of sensitive information. She also     of Representatives Bill 4983 (HR 4983), “Transpar-
    developed fraud briefings for GPO staff and was suc-       ency in Government Act of 2010,” which would
    cessful in obtaining U.S. Marshal Services’ Special        place certain requirements on the IG community
    Deputations for the OI’s Special Agents.                   to review data for Federal agency awards.
         Through it all, Debbie was able to successfully
                                                              	Convey the sense of the IG community regarding
                                                              ●
    raise three beautiful children. She also worked tire-
                                                               a requirement under Senate Bill 372 (S 372), “The
    lessly as a member of the Women in Federal Law
                                                               Whistleblower Protection Enhancement Act of
    Enforcement Association to promote work/life bal-
                                                               2009,” that IGs designate a Whistleblower Protec-
    ance in the workplace. We wish Debbie the best in
                                                               tion Ombudsman within their offices.
    her next adventures.
                                                                   In addition to participating in CIGIE meetings
                                                              and events, legislative branch IGs meet regularly to
    Council of the Inspectors                                 promote communication, cooperation, and coordi-
    Gener al on Integrit y and                                nation with one another on an informal basis. During
    Efficiency
                                                              this reporting period, the IGs of the Government
    On October 14, 2008, the IG Reform Act of 2008,           Accountability Office (GAO) and Library of Congress
    Public Law 110–409, established the CIGIE. The            hosted meetings in which the following issues were
    CIGIE addresses integrity, economy, and effective-        discussed and are undergoing consideration:
    ness issues that transcend individual Government          	 Shared training opportunities for legislative
                                                              ●

    agencies and helps increase professionalism and the         branch OIG personnel.
    effectiveness of personnel by developing policies,
                                                              ●   	Cross-cutting legislative branch audits and
    standards, and approaches aiding in establishing a
                                                                   inspections.
    well-trained and highly skilled workforce in OIGs.
    The GPO OIG—along with other legislative branch           	Model performance criteria and standards.
                                                              ●



    OIGs—is a member of CIGIE.                                	Ongoing discussions regarding legislative issues
                                                              ●


          The role of the CIGIE includes identifying,          affecting the legislative branch OIG offices.
    reviewing, and discussing areas of weakness and
    vulnerability in Federal programs and operations
                                                              Re view of Legisl ation and
    for fraud, waste, and abuse, and developing plans         Regul ations
    for coordinated Government-wide activities that
    address those problems and promote economy and            The OIG, in fulfilling its obligations under the IG Act,
    efficiency in Federal programs and operations.            reviews existing and proposed legislation and regula-
          In May 2009, the IG at GPO was elected to serve     tions relating to programs and operations at GPO. It
    a 2-year term as Chairman of the CIGIE Legislation        then reports in each semiannual report on the impact
    Committee. The Legislation Committee provides to the      of legislation or regulations on the economy and effi-
    IG community helpful and timely information about         ciency of programs and operations administered or
    congressional initiatives. The Committee also solicits    financed by GPO. The OIG will continue to assist the
    the IG community’s views and concerns in response         Agency in achieving its goals in that area.
    to congressional initiatives and requests, and presents         During this reporting period, there were no
    views and recommendations to congressional enti-          legislative proposals relating to GPO programs and
    ties and the Office of Management and Budget (OMB).       operations.




8   Off i c e o f I n s p e c t o r G e n e r a l
g p o m a nag e m e n t
ch allenges




I
     n each Semiannual Report to Congress, the OIG identifies
     for management a list of issues most likely to hamper the
     Agency’s efforts if not addressed with elevated levels of atten-
tion and resources. In this report, we update the list of manage-
ment challenges we believe are critical for the Agency to address.

     1. Human Capital Operations and Management. The issues fac-
ing Human Capital (HC) operations and management at GPO were
identified as a significant management challenge for several semian-
nual reporting periods. HC operations are at the heart of effectively
accomplishing an agency’s mission. In essence, HC provides services
necessary to acquire the most precious and important source of pro-
ductivity—its employees.
     In writing about the challenges of human capital in general, J.
Christopher Mihm recently notes that “[d]riven by long-term fiscal
constraints, changing demographics, evolving governance models,
and other factors, the federal government is facing new and more
complex challenges in the twenty-first century and federal agencies


                      GPO’s Top 10
                 Management Challenges


  	      1.	    Human Capital Operations and Management.
  	      2.	    Information Technology Management and Security.
  	      3. 	   Security and Intelligent Documents.
  	      4. 	   Internal Controls.
  	      5. 	   Protection of Sensitive Information.
  	      6. 	   Acquisitions and Print Procurement.
  	      7. 	   Financial Management and Performance.
  	      8.	    Continuity of Operations.
  	      9. 	   Strategic Vision and Customer Service.
  	     10. 	   Sustainable Environmental Stewardship.




                  S e m i a n n u a l r e p o r t t o c o n g r e ss    9
     must transform their organizations to meet these                    Among the significant findings of the OPM
     challenges. Strategic human capital management                 audit were that GPO (1) does not have a fully func-
     must be the centerpiece of any serious change in               tioning accountability system that ensures efficient
     management strategy.”1 In today’s environment,                 and compliant DE operations; (2) has significant
     successful HC operations are “results-oriented, cus-           problems in transaction processing, particularly
     tomer-focused, and collaborative.”2                            regarding the critical on-boarding process that
          GAO identified four critical areas related to             establishes new hires; (3) lacks consistent updated
     Strategic HC Management that the OIG believes are              guidance addressing DE processes; (4) has used HC
     relevant to GPO:                                               Specialists in DE work before completing certifica-
     ●	 Leadership . Top leadership must provide com-
                                                                    tion training, which is prohibited by the Interagency
        mitted and inspired attention needed to address             DE Agreement with OPM; and (5) is not using annual
        human capital transformation issues.                        trend data regarding opportunities to hire veterans,
                                                                    or the results of annual self-audits to improve pro-
     ●	 Strategic Human Capital Planning . HC planning
                                                                    gram operations.
        efforts must be fully integrated with mission and
                                                                         GPO HC management acknowledged prob-
        critical program goals.
                                                                    lems with its transaction processing, particularly
     ●	 Acquiring, Developing, and Recruiting Talent. Agen-
                                                                    the on-boarding processes, with the OIG expe-
        cies need to augment strategies to recruit, hire,           riencing an 80-percent error rate. OPM recom-
        develop, and retain talent.                                 mended that GPO consider an outsourcing pilot of
     ●	 Results-oriented Organizational Cultures. Organiza-         human resources services for the OIG, noting that
        tional cultures must promote high performance and           as an independent organization, the GPO OIG is
        accountability, empower and include employees in            an ideal candidate because many other OIGs have
        setting and accomplishing programmatic goals, and           outsourced their human resources services. With
        develop and maintain inclusive and diverse work-            such a pilot, GPO could track efficiency, effective-
        forces reflective of all segments of society.3              ness, and cost of the outsourcing option to com-
           We continue to be concerned that management              pare w ith its own HC operations. In response
     has not placed enough emphasis on addressing the               to the OPM recommendation and with the sup-
     four areas that GAO cites to transform HC operations           port of the Public Printer and Chief Management
     and management. During this                                                            Officer, the OIG proposed an
     reporting period, OPM issued
                                                     In today’s environment,                Interagency Agreement with
     audit findings about GPO’s del-                successful HC operations                OPM for such services dur-
     egated competitive examining                                                           ing fiscal year (FY) 2011.
                                                are “results-oriented, customer-                 In its response to OPM’s
     (DE) operations. OPM found
     that while most of the DE oper-              focused, and collaborative.”              aud it, GPO HC m a nage-
     ations are being conducted                                                             ment admits “the need for
     compliantly, a “lack of a viable accountability system”        improvement     in certain key areas regarding plan-
     contributed to two illegal appointments and resulted           ning, documenting, and accountabilit y” and
     “in inconsistent operations as well as inefficiencies.”        indicates either planned or initiated actions for
                                                                    addressing required and recommended actions.
                                                                    We encourage management to undertake and com-
     1
        “Human Capital: Federal workforce challenges in the         plete any action necessary to address OPM’s rec-
     Twenty-first Century,” in Hannah S. Sistare, Myra Howze
                                                                    ommendations as quickly as possible. For HC to
     Shiplett and Terry F. Buss, eds., Innovations in Human
     Resource Management: Getting the Public’s Work Done in         successfully transform to a high-performing busi-
     the 21st Century (New York: M.E. Sharpe, Inc., 2009), 13.      ness unit, it must produce a change in its culture to
     2
        Id., 19.
     3
                                                                    achieve “results-oriented, customer-focused, and
        GAO Report GAO-09-632T, http://www.gao.gov/new.
     items/d09632t.pdf.                                             collaborative” HC solutions.



10   Off i c e o f I n s p e c t o r G e n e r a l
     We also believe that the Agency faces challenges
in acquiring, developing, and retaining a diverse,
qualified workforce with the right sets of skills for
meeting both the Agency’s needs today and in the
future. In September 2008, we completed a con-
gressionally requested audit of GPO’s diversity pro-
grams, particularly those related to establishing a
more diverse population in senior leadership posi-
tions. The audit revealed that while GPO voluntarily
adopted several components for establishing a model
Federal Government diversity program, improve-
ments could be made toward enhancing diversity of
the Agency’s corps of senior-level employees. We rec-
ommended that the Public Printer adopt all or a com-
bination of the leading practices that GAO recom-        through implementation of new systems and retire-
mends for establishing a model Federal Government        ment of the older legacy systems. FDsys, human
program. During this reporting period, we closed         resource systems, and GBIS releases are now oper-
those recommendations.                                   ational. Additionally, in FY 2009, IT&S completed
                                                         an Agency-wide rollout of an enhanced Time and
2. Information Technology Management and Security.       Attendance application (WebTA).
As GPO transforms to a highly efficient and secure           The following areas are significant IT issues
multimedia digital environment, management of            confronting the Agency:
the Agency’s information technology (IT) resources            a. Compliance with the Federal Information
is critical. Acquisition, implementation, and sus-       Security Management Act
tainment of engineering issues associated with IT             Because GPO provides services to executive
resources and the Information Technology and             branch agencies that must comply with the Federal
Systems (IT&S) Business Unit (including security         Information Security Management Act (FISMA) of
issues) pose new management challenges.                  2002, GPO chose to substantially comply with the
      Noteworthy challenges for IT&S include estab-      principles of the Act. Complying with FISMA pres-
lishing and maintaining a top-level Enterprise           ents additional challenges for IT&S, including pro-
Architecture as well as support for several signifi-     tecting sensitive Agency systems, information, and
cant initiatives, including FDsys, the e-Passport sys-   data. During FY 2007, the OIG conducted a baseline
tem, digital publication authentication using a PKI,     assessment of compliance with FISMA to identify
information system management, implementation            any gaps and deficiencies in GPO’s overall infor-
of the GPO Business Information System (GBIS) (an        mation security program, including critical sys-
Oracle solution), and implementation of electronic       tems. We completed a full FISMA assessment in
human resources systems.                                 FY 2009. The scope included evaluating GPO prog-
      Legac y systems increasing ly in h ibit t he       ress in complying with FISMA based on the 2007
Agency’s ability to respond to customer needs and        assessment. Our most recent assessment noted that
must be replaced. To create a plan that will help mit-   while GPO has made some progress in complying
igate risks for aging legacy systems, IT&S analyzed      with FISMA, additional improvements are needed.
legacy applications and their impact on business         During this reporting period, IT&S continued to
operations. As a result, IT&S recently completed         progress in addressing recommendations made in
a 5-year strategy for improving the level of system      our 2009 assessment.
support and has begun executing the plan. The                 Looking forward, the potential changes to
strategy they developed should guide the Agency          FISMA resulting from draft legislation before



                                                         S e m i a n n u a l r e p o r t t o c o n g r e ss    11
     Congress present IT&S with areas to monitor and                      Testing – IV&V includes activities regarding the
     incorporate into GPO’s FISMA planning process.                  Master Test Plan and test efforts performed by the
          b. Implementation of the Federal Digital System            FDsys implementation team and the IT&S System
          The FDsys will be a comprehensive informa-                 Test Branch to verify adequacy and completeness of
     tion life-cycle management system that will ingest,             testing activities.
     preserve, provide access to, and deliver content from             The FDsys program has undergone substan-
     the three branches of the Federal Government. The           tial changes since its inception. During the fall of
     system is envisioned as a comprehensive, systematic,        2007, the schedule and scope for the first release
     and dynamic means of preserving electronic content          was changed significantly and a final release with
     free from dependence on specific hardware and/or            a reduced scope was planned for late 2008. In early
     software. As of September 30, 2010, GPO expended            2008, GPO implemented a reorganization of the pro-
     approximately $41 million (unaudited) to deploy             gram with respect to Government and contractor
     FDsys Release 1, substantially exceeding the origi-         participation and responsibilities, and implemented
     nal planned cost of $16 million.                            a new design for FDsys. The GPO FDsys Program
          FDsys has three major subsystems: the content          Management Office (PMO) assumed the role of the
     management subsystem, the content preservation              Master Integrator previously held by a Contractor.
     subsystem (accessible to GPO internal users only), and      The PMO also assumed the responsibility for design-
     the access subsystem for public content access and          ing and managing system development. The original
     dissemination. A multi-year, multi-release integra-         Master Integrator Contractor and other contractors
     tion effort is being used to design, procure, develop,      were assigned system development roles under the
     integrate, and deploy selected technologies and com-        overall guidance of the PMO.
     ponents of FDsys.                                                 In January 2009, GPO deployed a public beta
          The OIG is responsible for IV&V work associated        version of the FDsys access subsystem, containing
     with developing and implementing FDsys. Under the           8 of the 55 data collections in the GPO Access sys-
     supervision and direction of                                                        tem. The content manage-
     the OIG, American Systems                                                           ment and content preserva-
                                                As of September 30, 2010,
     conducts programmatic and                                                           tion subsystems, supporting
     technical evaluations of the           GPO expended approximately                   the Internal Service Provider,
     FDsys program to determine            $41 million (unaudited) to deploy             Congressional Publishing
     whether system implemen-                                                            Spe c i a l i st , P re s er v at ion
     tation is consistent with the
                                             FDsys Release 1, substantially              Specialist, and Report user
     FDsys project plan and cost            exceeding the original planned               roles, was released in late
     plan and meets GPO require-                    cost of $16 million.                 March 2009. Since deploy-
     ments. Additionally, IV&V                                                           ment, the PMO has contin-
     monitors development and program management                 ued to update/upgrade the beta system and correct
     practices and processes to anticipate potential issues.     deficiencies identified during testing.
     Specific IV&V tasks include:                                      During this reporting period, the PMO com-
          Program Management – IV&V includes activities          pleted deployment of 6 post-Release 1 produc-
     regarding the cost, schedule, and risk associated with      tion  builds. The builds nearly complete migration
     development and implementation to evaluate overall          of data   from the existing GPO Access system to
     program management effectiveness.                           FDsys,   and implement resolutions of 281 software
                                                                 Program Tracking Reports (PTRs). The Continuity
          Technical – IV&V includes activities regarding
                                                                 of Operations (COOP) capability, a critical step in the
     the resources, system requirements, architecture and
                                                                 transition from GPO Access to FDsys as the “system
     design documents, and other critical deliverables asso-
                                                                 of record,” has not yet been implemented. However,
     ciated with FDsys development and implementation.



12   Off i c e o f I n s p e c t o r G e n e r a l
PMO documentation reflects substantial progress          to meet expected performance. As of September
in terms of the design, development, and testing for     30, 2010, nearly 600 PTRs created since the ini-
both the Continuity of Access (COA) (to support the      tial beta deployment of Release 1 (in March 2009)
public users) and the full COOP.                         remain open and unresolved. The on-going need to
      Although the FDsys program continues to prog-      address these PTRs consumes program resources
ress, a number of issues remain. Based on the infor-     and reduces PMO ability to develop and deploy
mation contained in the FDsys Release 1 Completion       new functionality.
Plan dated October 1, 2010, the PMO completed the              This brief assessment does not mean to imply
Final Sunset Release and deployed this Release to        that the FDsys program lacks effort or has failed to
the Production System as scheduled on September          produce a viable product. The FDsys Release 1 beta
30, 2010. However, this does not mean that the PMO       system has received praise and notoriety for its look,
met their goal of sun-setting GPO Access and imple-      feel, and ease of use. The PMO has also dealt with
menting FDsys as GPO’s official system of record. The    external commitments/requests (for example, avail-
FDsys Release 1 Completion Plan has been modified        ability of bulk data) that have altered internal priori-
twice since then. The latest version of the Plan indi-   ties and resulted in the delay of work on the develop-
cates that the non-developmental activities that are     ment of all the capabilities envisioned for the release.
required to sunset GPO Access were eighty-two per-       In addition, the migration of data from GPO Access
cent complete with transition from GPO Access to         to FDsys has been an extremely difficult undertak-
FDsys planned for December 23, 2010. GPO contin-         ing and required more time and resources than the
ues to operate and maintain two systems. FDsys is        PMO originally anticipated.
still a beta system, and GPO Access continues as the           The OIG continues to believe that the primary
official system of record.                               challenges for the FDsys program are in the areas
      A continuing concern for the FDsys program         of program management, system engineering lead-
is the quality of the deployed system. While the         ership and technical direction, and an adequate
testing effort is better and more rigorous, the test     test program for the FDsys system. The goal of our
team is still identifying software problems before       on-going IV&V efforts is to report key risks and
major production builds are deployed. These              issues to the PMO and management and provide
problems, documented as PTRs, describe errors/           value-added recommendations that will help miti-
deficiencies in system operation and/or failures         gate any risks.



                                                         S e m i a n n u a l r e p o r t t o c o n g r e ss         13
     3. Security and Intelligent Documents. As the Federal          The OIG is in the process of finalizing an audit
     Government’s leading provider of secure creden-          of GPO’s secure personalization system (SECAPS)
     tials and identity documents, GPO management             IT security controls. SECAPS is the baseline for per-
     regards Security and Intelligent Documents (SID)         sonalization operations that supports various GPO
     as a business unit best exemplifying the Agency’s        customer identity card programs, including TTP
     transformation toward high-technology production.        and CMS. Because SECAPS handles PII, the OIG
     Because of SID’s growing strategic importance for        placed particular audit emphasis on security con-
     the Agency’s transformation efforts and its sensitive    trols over PII. The audit included a security evalua-
     work in areas of national security, the OIG closely      tion of SECAPS physical controls, system intercon-
     monitors management’s efforts in developing for-         nections and transmission of PII, operating systems
     mal, internal security controls of these products,       and database systems supporting SECAPS, and
     and will continue to emphasize oversight of all SID      purging PII. The OIG expects to issue the report in
     operations and programs.                                 November 2010.
           During this reporting period, SID manufactured           In 2005, the OIG recommended that GPO adopt
     more than 7.7 million electronic passports (e-Pass-      International Organization for Standardization
     port) for the Department of State. The Washington,       (ISO) 9000 standards for passport production. 5
     D.C., facility produced more than 5.4 million pass-      Standards help promote best practices for manage-
     ports, while the Secure Production Facility (SPF)        ment systems and occupational health and safety in
     located as a COOP site in                                                            a production environment. In
     Stennis, Mississippi, pro-               GPO management regards                      July 2010, the SPF at Stennis
     duced more than 2.3 million.                                                         and SID personnel success-
                                                Security and Intelligent
     During F Y 2010, t he total                                                          f u lly completed required
     passport production volume Documents (SID) as a business unit                        aud its, ma k i ng t he faci l-
     for the Department of State            best exemplifying the Agency’s                ity ISO 9001-certified. This
     was 13,275,300 passports.                                                            globally recognized certifi-
           SID continues to operate
                                                transformation toward                     cation is a significant accom-
     the Washington, D.C.-based              high-technology production.                  plishment. According to SID,
     Secure Credential Center                                                             the Washington, D.C., secure
     (SCC), which supports the Department of Homeland         facilities and SID personnel are also on schedule to
     Security’s Customs and Border Protection (DHS/CBP)       be ISO 9001-certified in November 2010. SID is also
     Trusted Traveler Programs (TTP).4 SID reports that       working to complete a library of standard operating
     the SCC produced 199,477 Trusted Traveler cards          procedures that will lay the foundation for future
     during FY 2010. During this reporting period, SCC        Occupational Health and Safety Assessment Series
     also produced, personalized, and distributed for the     (OHSAS) 18001 certification.6
     Department of Health and Human Services Center
     for Medicare and Medicaid Service’s (CMS) Medicare       5
                                                                  The International Organization for Standardization,
     identification cards to citizens of Puerto Rico. Rather  or ISO, is the world’s largest developer and publisher of
     than producing blank e‑Passports, which do not           international standards. ISO 9000 family of standards
     entail the “personalization” of the credential with      represents an international consensus on good quality
                                                              management practices. It consists of standards and
     a citizen’s personal information, the TTP and CMS        guidelines relating to quality management systems and
     programs entail the use of PII by GPO to produce         related supporting standards.
                                                              6
     identity cards.                                              OHSAS 18001 is an Occupation Health and Safety
                                                                  Assessment Series for health and safety management
                                                                  systems. It is intended to help an organization control
     4
        TTPs provide expedited travel for preapproved, low-risk   occupational health and safety risks. It was developed
     travelers through dedicated lanes and kiosks by providing    in response to widespread demand for a recognized
     those travelers secure identification cards.                 standard against which to be certified and assessed.




14   Off i c e o f I n s p e c t o r G e n e r a l
                                                             in FY 2011. Eliminating costly third party commer-
                                                             cial test laboratory expenses for required product
                                                             evaluations, the laboratory will also provide an
                                                             environment of greater governmental control and
                                                             security. The secure facilities are under construc-
                                                             tion, equipment has been ordered, and personnel
                                                             are being trained to support this crucial secure
                                                             product-testing environment.
                                                                  In cooperation with the Department of State’s
                                                             Bureau of Consular Affairs, the Agency issued a
                                                             Request for Proposal in June 2010 for procurement of
                                                             e-Covers used in manufacturing U.S. Passports. The
                                                             proposed e-Covers will be compatible with existing
                                                             GPO manufacturing and Department of State pass-
      SID also reports continuation of 5S audits at          port personalization processes, and must meet vari-
both plant locations. 5S is a methodology intended to        ous external applicable requirements and standards,
improve efficiencies in manufacturing process flows,         including those of the International Civil Aviation
equipment use and placement, and environmental               Organization (ICAO) and ISOs.
housekeeping standards. SID also continues its work
to complete the certification process for SCC to become      4. Internal Controls. GPO management establishes
a GSA-qualified secure card graphical personaliza-           and maintains a system of internal controls for
tion facility. Such a certification will allow SCC to han-   effective and efficient operations, reliable financial
dle, personalize, and distribute Homeland Security           reporting, and compliance with laws and regula-
Presidential Directive 12 (HSPD-12) cards. The audits        tions. As the GAO notes in its Standards of Internal
for certification were completed as planned in May           Control in the Federal Government, internal control
2010, and GSA should complete its assessment in              “also serves as the first line of defense in safeguard-
November 2010. This certification will allow the SCC         ing assets and preventing and detecting errors and
to more comprehensively serve Federal Government             fraud.” Almost all OIG audits include assessments of
organizations in the area of secure credentials.             a program, activity, or function’s control structure.
      SID is developing a capability to manufacture                Our audits continue to identify issues related
secure blank card bodies through the procurement of          to internal controls. For example, the OIG issued an
card lamination and punch equipment and technolo-            audit report during the last reporting period that dis-
gies that will result in more secure and controlled card     cusses internal controls associated with the security
production as well as lower costs and better service to      of GPO’s e-Passport supply chain. As part of that audit,
GPO’s agency customers. In September 2010, SID took          we determined whether GPO had formal documented
delivery of card lamination and punch equipment as           policies, procedures, techniques, or mechanisms in
well as the process of installation and development of       place to implement a security process for its e-Passport
standard operating procedures. Operator training is          supply chain and whether an organizational structure
underway. SID should be able to manufacture secure           was in place that clearly defines key areas of authority,
blank card bodies during FY 2011.                            responsibility, and appropriate lines of reporting for
      SID is also establishing a Secure Credential           e-Passport supply chain security. The audit revealed
Testing Laboratory that will conduct regular per-            that a control deficiency existed because GPO did not
formance, durability, and quality tests of passports         have a formal, Agency-wide process for ensuring secu-
and credential products. The Secure Credential               rity for the e‑Passport supply chain, as basic Federal
Testing Laboratory is expected to be operational             Government internal control standards require.




                                                             S e m i a n n u a l r e p o r t t o c o n g r e ss          15
           The annual financial statement audit also                 safeguards for PII, and maintain accurate, relevant,
     addresses internal control issues and provides man-             timely, and complete PII information. As reported in
     agement with recommendations for corrective actions.            OIG Report 07-09, “GPO Compliance with the Federal
     Although management recognizes the need for improv-             Information Security Management Act (FISMA),”
     ing the internal control environment to successfully            dated September 27, 2007, and again in our FISMA
     implement its strategic vision and planned future initia-       Report 10–03 dated January 12, 2010, GPO is pro-
     tives, Agency action is important because of implemen-          gressing with efforts to protect PII contained in infor-
     tation of Statement on Auditing Standards (SAS) No. 112,        mation systems. GPO Directive 825.41, “Protection
     “Communicating Internal Control Related Matters                 of Personally Identifiable Information,” issued
     Identified in an Audit.” SAS No. 112 establishes stan-          March 30, 2010, establishes a framework for protect-
     dards and provides guidance on communicating mat-               ing PII at GPO.
     ters related to an entity’s internal control over financial             In response to recommendations included in
     reporting identified in a financial statement audit. The        a February 2009 Management Implication Report
     standard requires that the auditor communicate con-             regarding the handling of PII, the Public Printer
     trol deficiencies that are “signif-                                                        appoi nted a sen ior-level
     icant deficiencies” and “mate-                                                             manager as Privacy Officer
                                                 Internal control “also serves
     rial weaknesses.” During the FY                                                            (PO) during the last report-
     2009 financial statement audit,              as the first line of defense in               ing period. The primary duty
     KPMG, LLP, (KPMG) identified           safeguarding assets and preventing for the PO is to implement
     two significant internal control                                                           Directive 825.41. The PO will
                                              and detecting errors and fraud.”
     deficiencies it did not consider                                                           also review PII in each of
     material weaknesses. The sig-                                                              the Agency’s business units,
     nificant deficiencies KPMG identified were related to           reduce PII to the minimum necessary, develop a
     (1) financial reporting controls, and (2) IT general and        schedule for periodic review of PII, establish a plan to
     application controls. The deficiencies will be followed         eliminate the unnecessary collection and use of social
     up on during the FY 2010 financial statement audit,             security numbers, and establish an incident response
     which is ongoing. An evaluation of internal controls            plan to handle breaches of PII. The OIG is monitoring
     continues an area of emphasis for all OIG audits.               implementation of GPO Directive 825.41 to ensure that
                                                                     safeguards are in place, implemented, and followed.
     5. Protection of Sensitive Information. GPO has had to                  During this reporting period, GPO hired a new pri-
     establish rules of conduct and appropriate admin-               vacy program manager (PPM) to help the PO implement
     istrative, technical, and physical safeguards that              GPO Directive 825.41. The PPM has met with various
     adequately identify and protect sensitive informa-              GPO Business Units, identified what PII is at GPO, where
     tion. Failure to have such rules and safeguards could           it is located, and how it is safeguarded. The PPM estab-
     result in harm, embarrassment, inconvenience, or                lished a Privacy Incident Response Team and incident
     unfairness to individuals and GPO, including pos-               handling timeline so that GPO can respond appropri-
     sible litigation. Of particular importance is the need          ately to any privacy related incident. In addition, each
     to safeguard against and respond to any breach                  Business Unit has designated a Privacy Point of Contact
     of PII, including PII in both information systems               who will work closely with the PPM to ensure that any
     and paper documents. In accordance with OMB                     existing or new projects adhere to GPO’s privacy protec-
     Memorandum 06-15 and OMB Memorandum 07-16,                      tion policies. The PPM is working with GPO University
     executive branch agencies must implement policies               to develop a training curriculum for all GPO employees
     and procedures that protect and respond to a breach             and contractors on their responsibilities for protecting
     of PII as far back as the middle of 2007.                       PII and complying with established guidelines.
           FISMA requires that each agency establish rules                   Finally, the Agency issued new, updated forms
     of conduct for persons involved with PII, establish             for Agency customers—t he SF-1 Binding and



16   Off i c e o f I n s p e c t o r G e n e r a l
Requisition Form and the GPO 4044 (Simplified
Purchase Agreement Work Order)—that will now
require that customers indicate whether documents
are classified, sensitive but unclassified (SBU), or
contain PII. The forms were revised, in part, in
response to the OIG’s recommendations to improve
GPO processes concerning handling classified and
sensitive but unclassified materials, in addition to
other instances regarding the handling of PII. We
applaud the agency for moving forward with these
efforts to address PII protection at GPO.

6. Acquisitions and Print Procurement. As with other
Federal agencies, GPO faces challenges in its acqui-
sition functions. Acquiring goods and services, espe-
cially those necessary to transform the Agency and
provide services to its Federal customers in an effi-
cient, effective, accountable, and environmentally
conscious manner, is essential. With more than $650
million in acquisitions during FY 2009, we remain con-
cerned that the Agency has not devoted the resources
necessary for conducting an independent assessment          security of the e‑Passport supply chain and other
of acquisition services that will identify gaps in effec-   ongoing audits. As our audit of the e-Passport sup-
tive performance and implement a plan for resolving         ply chain revealed, of the 10 significant e-Passport
critical issues, as the Services Acquisition Reform Act     supplier contracts reviewed, 5 lacked critical infor-
of 2003 and OMB guidelines require.                         mation that the Agency’s Materials Management
      During 2009, OMB provided guidelines to exec-         Acquisition Regulation (MMAR) requires. Such con-
utive branch agencies requiring that they conduct           tract file information is critical to the OIG so we can
internal reviews of the acquisition function required       review and investigate Agency contracting actions
under OMB Circular No. A-123. OMB used the GAO              and administration. Acquisition Services should
“Framework for Assessing the Acquisition Function           comply with the MMAR by properly documenting
at Federal Agencies” as the standard assessment             contract files.
approach.7 Although GPO is not required to follow                Additionally, we identified that a signifi-
OMB guidelines in that area, we believe that the            cant number of e-Passport supplier contracts did
Agency would greatly benefit from a review of its           not contain security-related requirements or lan-
Acquisition Services. Although the Public Printer           guage that would have given the Agency the right to
announced in his June 7, 2010, letter to Congress that      review, authorize the subcontracting of, and inspect
such an independent assessment would be com-                the operations of companies that provide critical
pleted by the end of this reporting period, the OIG         components for the e-Passport. Acquisition Services
has not yet received the assessment report.                 should work with the Office of General Counsel and
      We are also concerned about other specific            SID to ensure that all contracts related to e-Passports,
issues regarding Agency contract administra-                and other sensitive identity products, include the
tion, as evidenced in part by our recent audit of the       appropriate language about proper security plans
                                                            and oversight rights.
7
    GAO Report GAO-05-218G, September 2005, http://              Finally, we note that the Improper Payments
www.gao.gov/new.items/d05218g.pdf.
                                                            Elimination Improvement Act was signed into law



                                                            S e m i a n n u a l r e p o r t t o c o n g r e ss         17
     on July 22, 2010. That 2010 Act amends the Improper      financial reporting controls, and (2) IT general and
     Payments Information Act of 2002 by requiring that       application controls.8
     executive branch agencies periodically identify and            With respect to financial reporting controls,
     review programs and activities susceptible to signifi-   KPMG identified specific deficiencies concerning
     cant improper payments and report on any actions         review and reporting of general property, plant, and
     to reduce or recover improper payments in accor-         equipment; certain reconciliation controls; and con-
     dance with guidance OMB plans to issue. Although         trols over compilation of statement of cash flows.
     GPO is not covered by law, we urge management to         Deficiencies with the design and/or operations of
     undertake this type of review so that it can develop     GPO’s IT general and application controls were noted
     actions that will reduce or recover any improper pay-    in security management, access controls, config-
     ments. We expect to review efforts by the Agency in      uration management, and contingency planning.
     this area in the future.                                 Financial management and performance and the
                                                              Agency’s ability to provide timely, accurate, and use-
     7. Financial Management and Performance. Over            ful financial information will continue to be a man-
     the years, financial management and performance          agement concern. Each of the identified weaknesses
     has been identified by many agencies, includ-            and deficiencies will be followed up on as part of the
     ing GPO, as a significant management challenge.          FY 2010 financial audit, which is in progress.
     Federal agencies continue to face challenges pro-
     viding timely, accurate, and useful financial infor-     8. Continuity of Operations. GPO’s ability to con-
     mation and managing results. Better budget and           tinue its mission essential functions of congressional
     performance integration has become even more             printing and publishing, production of the Federal
     critical for results-oriented management and effi-       Register, and production of blank passport books for
     cient allocation of scarce resources among compet-       the Department of State during a disruption in opera-
     ing needs. OIG auditors and contractors they over-       tions continues to be a significant area of concern. A
     see are vital in keeping the Federal Government’s        power loss incident in 2009, which directly affected
     financial information and reporting transparent,         production of the Congressional Record, brought the
     valid, and useful to agency decision makers and          COOP issue to the forefront and underscored the crit-
     other stakeholders.                                      ical nature of the Agency’s ability to continue essen-
           GPO has completed migration of current busi-       tial functions during a disruption of operations. A
     ness, operational, and financial systems, including      public-facing server outage in 2009 also raised issues
     associated work processes, to an integrated system of    concerning the capability of GPO to maintain com-
     Oracle enterprise software and applications known        munications with external stakeholders and employ-
     as the Oracle E-Business Suite. The new system is        ees during a COOP event to include Web-based con-
     intended to provide GPO with integrated and flex-        tent as well as e-mail.
     ible tools that support business growth and customer           The Agency continues with the necessary steps
     technology requirements for products and services.       for enhancing its COOP posture, including planning
           The OIG continues to oversee the activities of     and conducting exercises with scenarios that test
     KPMG, the IPA conducting the annual financial            alternate production facilities and procedures for
     statement audit. KPMG expressed an unqualified
     opinion on GPO’s FY 2009 financial statements, stat-     8
                                                                  A significant deficiency is defined as a deficiency, or
     ing that the Agency’s financial statements were fairly   combination of deficiencies, in internal control that is less
                                                              severe than a material weakness, yet important enough
     presented, in all material respects, and in confor-
                                                              to merit attention by those charged with governance.
     mity with generally accepted accounting principles.      A material weakness is a deficiency, or combination
     Although GPO addressed previous material weak-           of deficiencies, in internal control, such that there is a
                                                              reasonable possibility that a material misstatement of
     nesses, KPMG identified two significant deficiencies
                                                              the entity’s financial statements will not be prevented, or
     it did not consider material weaknesses, including (1)   detected and corrected on a timely basis.



18   Off i c e o f I n s p e c t o r G e n e r a l
notifying essential personnel. Accomplishments dur-       creating a culture of customer service, support of
ing the last reporting period included an Executive       the Administration’s initiative on transparency, and
Offices COOP exercise in February 2010. The exer-         a collaborative approach to fiscal responsibility. As
cise was the first involving executive leadership and     of the end of this reporting period, management has
some support units, and included relocating to a non-     not provided the OIG with an update to the Agency’s
GPO facility for strategy and decision-making. The        Strategic Vision.
primary goal of the exercise was to familiarize the
appropriate personnel with the procedures and situa-      10. Sustainable Environmental Stewardship. As the
tion of working out of a non-GPO building to manage       largest industrial manufacturer in the District of
the first phase of a COOP event. Although all of the      Columbia, GPO has always faced challenges to
goals were demonstrated, there were areas needing         become more environmentally sensitive. The Public
improvement and recommendations made for fur-             Printer has made central to his administration “the
ther improving the Agency’s COOP posture. These           call to sustainable environmental stewardship”
areas will be further tested as part of the Agency’s      and to attempt to be green in virtually every step of
COOP plans for FY 2011.                                   the printing process. Previously, the Public Printer
                                                          outlined a plan that would help GPO become more
9. Strategic Vision and Customer Service. To achieve      efficient and make better use of resources under
its objectives as a 21st Century information process-     its control. More recently, the Public Printer noted
ing and dissemination operation, GPO management           that a future based on environmental sustainabil-
must maintain the appropriate focus, staffing, and        ity is more than simply going green, but rather “it
alignment with the Agency Strategic Vision. The cul-      means expanding our digital operations and mak-
ture and focus of customer service efforts must reflect   ing changes in paper, inks, equipment configura-
a new way of thinking, and customers should come          tions, and energy sources so that we can support
to GPO because they want—not because they must.           our customers in Congress, Federal agencies, and
Transformation of the traditional GPO customer
relationship requires a continuing evolution toward
state-of-the-art customer relations management.
      In line with its Strategic Vision, GPO previously
reorganized several business units to better serve its
Government customers. Such a realignment of busi-
ness units was initiated to help streamline processes,
strengthen customer relationships, and develop new
sales opportunities. GPO should continue its efforts
to enhance business development and customer ser-
vice and measure their level of success to ensure a
culture of continuous improvement.
      Nevertheless, after almost 6 years, the Agency’s
Strategic Vision, which was issued on December 4,
2004, and included a Business Plan from FY 2005
through 2009, is itself in need of review and updat-
ing. The Agency should review its transforma-
tional efforts thus far to measure its accomplish-
ments, its shortcomings, and its renewed vision for
the future. Senior management developed a draft
update to the Agency’s Strategic Vision in May 2010
that included nine strategic goals, which included



                                                          S e m i a n n u a l r e p o r t t o c o n g r e ss      19
     the public in a more efficient and environmentally                    Although not required to adhere to the Executive
     responsible way.”                                               Order, we urge that management adopt its tenets and
           We reported in our previous semiannual report             develop written policies for purchasing environmen-
     that GPO was printing the Congressional Record on               tally sustainable goods and services, monitor com-
     paper comprised of 100-percent post-consumer                    pliance annually and fix shortcomings, and provide
     waste. GPO is also printing the Federal Register on             training on making purchases that are environmen-
     100-percent post-consumer waste paper. And prog-                tally sound and comply with the spirit of the order.
     ress continues on other initiatives, including moving           These and other stewardship initiatives will require
     from Web offset presses to digital equipment, devel-            a top-to-bottom and bottom-to-top commitment.
     oping a chemical inventory management system, and               Employee empowerment and training will be abso-
     reducing landfill waste.                                        lutely necessary for the Agency to achieve its goals
           We continue to encourage management and                   and sustain them.
     Congress to renew their efforts to evaluate a new                     We noted in our previous report that GPO’s
     facility that would more appropriately meet Agency              environmental executive recommended to the OIG
     needs and be more energy efficient. A more energy               issues to explore with the GPO legislative branch
     efficient and environmentally conscious facility                counterparts. Those recommendations include
     not only fits with the Agency’s environmental stew-             the following:
     ardship initiative but also meets the environmen-               ●	 consolidating waste-hauling contracts to obtain

     tal and economic objectives for Congress and the                   a more favorable rate for recycled goods as well as
     Administration.                                                    ensure that each agency can participate in recy-
           We also encourage management to promote and                  cling efforts.
     incorporate green thinking into all business processes
                                                                     ●	 consolidating standard goods purchasing, such as
     through performance metrics, reward programs, and
                                                                        cafeteria supplies, cleaning chemicals, and paper
     other means. For example, the OIG urges an integrated
                                                                        (in all its forms), to reduce cost and ensure each
     approach to green acquisition. In October 2009, the
                                                                        agency is using the “greenest” products available.
     President issued Executive Order 13514, which sets
                                                                     ●	 sharing service contracts to achieve economies
     sustainability goals for Federal agencies and focuses
     on making improvements in their environmental,                     of scale and uniformity throughout the legislative
     energy, and economic performance. In particular,                   branch agencies.
     the Executive Order advances sustainable acquisition                  The legislative branch OIGs have reviewed the
     by ensuring that 95 percent of new contract actions             issues and are exploring crosscutting review oppor-
     including task and delivery orders for products and             tunities. We again encourage that management
     ser v ices (w it h t he excep-                                                            address those issues directly
     tion of acquisition of weapon               We   continue    to encourage                 with officials in other legisla-
     systems) are energ y-ef f i-             management and Congress to                       tive branch agencies.
     cient (such as Energy Star or                                                                  We included in our work
     Federal Energy Management
                                              renew     their efforts  to evaluate             plan  a review of energy use at
     Program designated), water-              a new facility that would more                   GPO to determine whether a
     efficient, bio-based, envi-                                                               comprehensive plan exists for
                                            appropriately meet Agency needs
     ronmentally preferable (for                                                               implementing energy-related
     example, Electronic Product               and    be more   energy    efficient.           projects, as part of an overall
     Environmental Assessment                                                                  plan that helps reduce emis-
     Tool certified), non-ozone depleting, contain recy-             sions, energy consumption, and energy costs. We
     cled content, or are non-toxic or less-toxic alternatives,      look forward to working with Agency personnel in
     where such products and services meet an agency’s               achieving a long-term and sustainable environmen-
     performance requirements.                                       tal stewardship program.



20   Off i c e o f I n s p e c t o r G e n e r a l
o f f i c e o f au d i t s
a n d inspections




A
         s the IG Act requires, OAI conducts independent and objective
         performance and financial audits relating to GPO operations
         and programs, and oversees the annual financial statement
audit an IPA firm conducts. OAI also conducts short-term inspections
and assessments of GPO activities, which generally focus on issues
limited in scope and time. OIG audits are performed in accordance
with generally accepted government auditing standards that the
Comptroller General of the United States issues. When requested, OAI
provides accounting and auditing assistance for both civil and crimi-
nal investigations. OAI refers to OI for investigative consideration any
irregularities or suspicious conduct detected during audits, inspec-
tions, or assessments.


A . Summary of Audit and
Inspection Activit y
During this reporting period, OAI issued three new reports. OAI also
continued its work with management to close open recommenda-
tions carried over from previous reporting periods. As of September
30, 2010, a total of 48 recommendations from previous reporting peri-
ods remain open.


B. Financial Statement Audit
Federal law requires that GPO obtain an independent annual audit of
its financial statements, which the OIG oversees. KPMG is conduct-
ing the FY 2010 audit under a multiyear contract for which OAI serves
as the Contracting Officer’s Technical Representative (COTR). The
oversight provided ensures that the audit complies with Government
Audit Standards. OAI also assists with facilitating the external audi-
tor’s work as well as reviewing the work performed. In addition, OAI
provides administrative support to KPMG auditors and coordinates
the audit with GPO management. OIG oversight of KPMG, as differen-
tiated from an audit in accordance with Government Audit Standards,




                 S e m i a n n u a l r e p o r t t o c o n g r e ss        21
     is not intended to enable us to express, and therefore      schedule risks, the report discusses issues and con-
     we do not express, an opinion on GPO’s financial            cerns addressed in previous quarterly reports. The
     statements, the effectiveness of internal controls, or      issues and concerns were already encompassed by
     compliance with laws and regulations.                       open recommendations provided to the PMO in pre-
          KPMG previously issued an unqualified opin-            vious IV&V Quarterly Reports.
     ion on GPO’s FY 2009 financial statements, stating
     that the Agency’s financial statements were fairly          2. Assessment Report 10 – 08
                                                                 (Issued September 16, 2010)
     presented, in all material respects, and in confor-
     mity with generally accepted accounting principles.         Federal Digital System (FDsys) Independent Verifi-
     KPMG identified two significant deficiencies, which it      cation and Validation – Twelfth Quarter Report on
     did not consider to material weaknesses. Those defi-        Risk Management, Issues, and Traceability
     ciencies were: (1) financial reporting controls and (2)     The twelfth quarterly report on FDsys covers the
     IT general and application controls.                        period from April 7, 2010, through July 30, 2010. The
          During this reporting period, KPMG began work          period covered for this report was extended from
     on the audit of GPO’s 2010 consolidated financial           June 30 to July 30 in order to include responses from
     statements.                                                 the FDsys PMO to the OIG’s request for information
                                                                 related to the first public FDsys Program Review.
     C. Audit and Inspection Reports                             During this period, IV&V did not identify any new
                                                                 technical, cost, or schedule risks. As a result, we did
     1. Assessment Report 10 – 07                                not make any new recommendations. The report
     (Issued June 18, 2010)                                      does, however, discuss several issues worth noting as
     Federal Digital System (FDsys) Independent Veri-            the PMO implements the remaining efforts to com-
     fication and Validation – Eleventh Quarter Report           plete Release 1. For example, IV&V identified that:
     on Risk Management, Issues, and Traceability                	As of July 28, 2010, the PMO identified a total of 155
                                                                 ●


     The FDsys program is intended to modernize the               Program Tracking Reports (PTRs) that need resolv-
     information collection, processing, and dissemina-           ing to complete Release 1 and sunset GPO Access.
     tion capabilities GPO performs for the three branches        Resolving those 155 PTRs would result in at least 565
     of the Federal Government. During this reporting             remaining open in various states (for example, Sub-
     period, the OIG continued to oversee the efforts of          mitted, In Analysis, In Work) when FDsys replaces
     American Systems as it conducted IV&V for the public         GPO Access as GPO’s electronic system of record.
     release of FDsys. As part of its contract with the OIG,     	 Seventy-four system requirements that are “Not
                                                                 ●


     American Systems is assessing the state of program            Implemented” were assigned the status “Need for
     management, technical and testing plans, and other            Release 1 Completion.” Of the 74 requirements, 26
     efforts related to the rollout of Release 1. The contract     also had associated PTRs. Of the 26 requirements,
     requires that American Systems issue to the OIG a             18 appear to have been implemented because their
     quarterly Risk Management, Issues, and Traceability           associated PTRs were resolved. The other eight
     Report, providing observations and recommenda-                requirements in this group were linked to PTRs but
     tions on the program’s technical, schedule, and cost          not included in a July 28, 2010, list of critical PTRs
     risks as well as requirements traceability of those           that must be fixed to sunset GPO Access. Thus, it
     risks and the effectiveness of the program manage-            was not clear whether the PMO intended to resolve
     ment processes in controlling risk avoidance.                 these eight as part of the FDsys Release 1 product
          This eleventh quarterly report covers the period         targeted for the end of FY 2010.
     from January 1, 2010, through April 6, 2010. Although       	The other 48 requirements “Not Implemented”
                                                                 ●

     IV&V did not identify any new technical, cost, or            with a status of “Need for Release 1 Completion”




22   Off i c e o f I n s p e c t o r G e n e r a l
    had not been assigned to PTRs. Since the Release
    1 Completion schedule did not contain a specific
    task to resolve them, it is unknown if their fixes
    had already been or would be implemented in the
    Release 1 time frame.
●	The PMO has made substantial progress toward
  completion of Release 1. The schedule, which is
  being maintained on a weekly basis, indicates
  that the Release 1 effort is 58-percent complete.
  However, the schedule also indicates that signifi-
  cant efforts, specifically those related to the final
  verification of the system, are incomplete.
    Recommendations provided to the PMO, which
address the concerns identified, were provided by
IV&V in earlier Quarterly Reports.

3. Assessment Report 10 – 09
(Issued September 20, 2010)

WebTrust Assessment of GPO’s Public Key
Infrastructure Certification Authority –
Attestation Report
GPO implemented a PKI to support its “born digital
and published to the web” methodology to meet GPO
customer expectations of being official and authen-
tic. The GPO PKI also directly supports GPO’s mis-
sion related to electronic information dissemination
and e-Government. The GPO Certification Authority
(CA) issues, signs, and manages the public key cer-
tificates in secure facilities based in Washington,
D.C. The GPO PKI is cross-certified with the Federal
Bridge Certificate Authority (FBCA). FBCA certifica-      controls over its CA operations is fairly stated based
tion provisions require that the GPO PKI undergo an       on underlying principles and evaluation criteria.
annual compliance review.                                     The scope of the assessment included the fol-
      To satisfy this compliance requirement, the         lowing entities involved with operating the GPO CA:
OIG tasked Ernst & Young to conduct a WebTrust
                                                          	CA policies and procedures
                                                          ●
assessment of its CA. The assessment, for the period
of July 1, 2009, through June 30, 2010, was con-          	Registration authorities
                                                          ●


ducted in accordance with the American Institute          	CA and repository
                                                          ●


of Certified Public Accountants (AICPA) WebTrust          	CA supporting systems, databases, and PKI facilities
                                                          ●

Principles and Criteria for Certificate Authorities
                                                               The assessment also measured CA compliance
a nd Statement on Sta nda rds for At testat ion
                                                          with reporting requirements of the Federal Public
Engagements (SSAE) Number 10. The assessment
                                                          Key Infrastructure Policy Authority.
represents an evaluation of whether GPO’s asser-
                                                               As a result of work performed, Ernst & Young
tion related to the adequacy and effectiveness of
                                                          issued an attestation report expressing its unqualified




                                                          S e m i a n n u a l r e p o r t t o c o n g r e ss        23
     opinion that management’s assertion related to the ade-        (4) calculation and administration of bi-weekly
     quacy and effectiveness of controls over its CA opera-         and annual earnings limits and salary caps; and
     tions was, in all material respects, fairly stated based       (5) calculation, payment, and administration of
     on the AICPA WebTrust for CA Criteria.                         the GPO Goal Sharing Program.
                                                                	An audit of the Secure Card Personalization Sys-
                                                                ●



     D. Ongoing Work                                             tem’s (SECAPS) IT Security Controls will deter-
                                                                 mine whether a requisite level of IT security con-
     OAI has several audits and assessments ongoing              trols was applied to help ensure data integrity, data
     whose results should be published during the next           confidentiality, and system availability.
     reporting period. Those assignments include:
     	An audit of GPO’s Administration of the FDsys
     ●
                                                                E . Status of Open
      Master Integrator Contract will determine whether         Recommendations
      GPO effectively administered the contract. The
      audit will specifically determine whether GPO             Management officials made progress in implement-
      adhered to the Materials Management Acquisi-              ing and closing many of the recommendations iden-
      tion Regulation and other applicable laws, rules,         tified during previous semiannual reporting periods.
      regulations, and guidance related to (1) con-             For the 48 recommendations still open, a summary
      tract award; (2) monitoring of contract perfor-           of the findings and recommendations, along with the
      mance; (3) contract modifications; (4) verification       status of actions for implementing the recommenda-
      of costs incurred; and (5) contract closeout.             tion and OIG comments, follows.

     	An audit of the GPO Express Program will evaluate
     ●
                                                                1. Assessment Report 06– 02
      management controls over the program, including           (Issued March 28, 2006)
      whether (1) GPO Express cards were adequately
                                                                GPO Network Vulnerability Assessment
      controlled and issued, (2) contract terms between
      FedEx Kinkos and GPO were complied with, and              F i n di ng
      (3) revenues reflected program activity.                  Although GPO has many enterprise network controls in
     	An audit of Control and Accountability of Lap-
     ●                                                          place, improvements that will strengthen the network
      top Computers will determine whether (1) GPO              security posture are needed. During internal testing, we
      could account for all Agency laptop purchases and         noted several vulnerabilities requiring strengthening of
      (2) controls were in place to prevent the theft or loss   controls. However, no critical vulnerabilities were iden-
      of laptops.                                               tified during external testing. Although unclassified,
     	An audit of the GPO Ethics Program will deter-
     ●
                                                                we consider the results of the assessment sensitive and,
      mine whether (1) GPO complied with applicable             therefore, limited discussion of its findings.
      Federal ethics guidance, and (2) the ethics pro-          R e c om m e n dat ion
      gram at GPO was consistent with Federal Govern-           The OIG made four recommendations that should
      ment best practices.                                      strengthen internal controls associated with the GPO
     	 Senior management requested that the OIG assess
     ●
                                                                enterprise network. Those recommendations should
       compliance of GPO’s payroll operations with appli-       reduce the risk of compromise to GPO data and systems.
       cable laws, rules, and regulations. The audit will       M a n ag e m e n t C om m e n t s
       determine whether GPO complied with applicable           Management concurred with each recommendation
       guidance related to the (1) request and approval of      and initiated corrective action.
       Leave Without Pay (LWOP); (2) request, approval,         OIG C om m e n t s
       calculation, and administration of advanced              One recommendation made in this report remains open.
       annual leave; (3) request, approval, calculation,        Implementation of corrective action is still ongoing.
       and administration of daily and weekly overtime;



24   Off i c e o f I n s p e c t o r G e n e r a l
2. Assessment Report 08 –12                             R e c om m e n dat ion
(Issued September 30, 2008)                             The OIG made two recommendations to management
                                                        that would enhance planning for the IPv6 transition.
Assessment of GPO’s Transition Planning for Inter-
net Protocol Version 6 (IPv6)                           M a n ag e m e n t C om m e n t s
                                                        Management concurred with each recommendation
F i n di ng                                             and has either taken or planned to take responsive
The OIG assessed Agency planning for transi-            corrective actions.
tion from Internet Protocol version 4 (IPv4) to ver-
                                                        OIG C om m e n t s
sion 6 (IPv6). Internet routing protocols are used
                                                        One recommendation remains open. The recom-
to exchange information across the Internet.
                                                        mendation remains open pending completion of
Protocols are standards that define how computer
                                                        GPO’s ongoing infrastructure refresh.
data are formatted and received by other comput-
ers. IPv6 is a developing Internet protocol that pro-   3. Assessment Report 09 – 01
vides benefits such as more Internet addresses,         (Issued November 4, 2008)
higher qualities of service, and better authentica-
                                                        Federal Digital System (FDsys) Independent Verifi-
tion, data integrity, and data confidentiality. The
                                                        cation and Validation (IV&V) - Fourth Quarter Re-
OIG assessment identified that GPO plans to tran-
                                                        port on Risk Management, Issues, and Traceability
sition to IPv6 as part of a broad acquisition plan
that will update its IT infrastructure. The Agency      F i n di ng
has not finalized target dates for the updates. The     The OIG contracted with American Systems, a com-
OIG believes that the planned transition is an          pany with significant experience in the realm of IV&V
effective long-term approach. In the short term,        for Federal civilian and Defense agencies, to conduct
however, GPO should consider implementing               IV&V for the first public release of FDsys. As part of
the minimum IPv6 requirements, which should             its contract, the contractor is assessing the state of
ensure that resources such as FDsys are capable of      program management, technical and testing plans,
ingesting information from IPv6 sources.                and other efforts related to this public release. The



                                                        S e m i a n n u a l r e p o r t t o c o n g r e ss       25
     contractor is required to issue to the OIG a quarterly
     Risk Management, Issues, and Traceability Report
     providing observations and recommendations on the
     program’s technical, schedule and cost risks, as well
     as requirements traceability of those risks and the
     effectiveness of the program management process in
     controlling risk. During the period this report covers,
     GPO launched a public beta version of FDsys contain-
     ing a limited number of collections. This fourth quar-
     terly report provides an overview of the key risks and    nonconcurred with three. Management proposed
     issues identified by the FDsys IV&V team from April       responsive corrective actions to six of the recom-
     through June 2008, including security requirements        mendations. Although we disagreed with man-
     and risk management.                                      agement’s position on the remaining four recom-
     R e c om m e n dat ion                                    mendations, we accepted management’s proposed
     The OIG made five recommendations to manage-              alternative corrective actions.
     ment intended to further strengthen management            OIG C om m e n t s
     of the FDsys program.                                     Three recommendations remain open. Management
     M a n ag e m e n t C om m e n t s                         continues to take responsive actions to implement
     Management concurred with each recommendation             the three open recommendations.
     and proposed responsive corrective actions.
                                                               5. Assessment Report 09 – 07
     OIG C om m e n t s                                        (Issued March 20, 2009)
     Two recommendations remain open. Management
     continues to work on implementing corrective              Federal Digital System (FDsys) Independent
     actions for the three open recommendations.               Verification and Validation (IV&V) –
                                                               Sixth Quarter Report on Risk Management,
     4. Assessment Report 09 – 03                              Issues, and Traceability
     (Issued December 24, 2008)
                                                               F i n di ng
     Federal Digital System (FDsys) Independent                This sixth quarterly report provides an overview of
     Verification and Validation (IV&V) – Fifth Quarter        the key risks and issues identified by the FDsys IV&V
     Report on Risk Management, Issues, and Traceability       team from October 2008 through January 9, 2009,
                                                               including security and the state of program activities
     F i n di ng
                                                               required for deployment as well as technical, sched-
     This fifth quarterly report provides an overview of
                                                               ule, and cost risks.
     the key risks and issues identified by the FDsys IV&V
     team from July through September 2008, including          R e c om m e n dat ion
     those related to the FDsys detail design, and system      The OIG made four recommendations intended
     integration testing as well as technical, schedule, and   to further strengthen management of the FDsys
     cost risks the program faces.                             program.
     R e c om m e n dat ion                                    M a n ag e m e n t C om m e n t s
     The OIG made 10 recommendations to management             Management concurred with each recommendation
     intended to further strengthen management of the          and proposed responsive corrective actions.
     FDsys program.                                            OIG C om m e n t s
     M a n ag e m e n t C om m e n t s                         Three recommendations remain open. Management
     Management concurred with six of the recom-               continues to take responsive actions to implement
     mendations, partially concurred with one, and             the three open recommendations.



26   Off i c e o f I n s p e c t o r G e n e r a l
6. Assessment Report 09 –12                               M a n ag e m e n t C om m e n t s
(Issued September 30, 2009)                               Management generally concurred with each recom-
                                                          mendation with the exception of one and proposed
Federal Digital System (FDsys) Independent
                                                          responsive corrective actions for each.
Verification and Validation (IV&V) – Seventh
Quarter Report on Risk Management, Issues,                OIG C om m e n t s

and Traceability                                          A total of 17 recommendations remain open. The
                                                          OIG and IV&V continue to monitor the status of their
F i n di ng                                               implementation.
This seventh quarterly report for the period January
1, 2009, through May 8, 2009, identifies critical tech-   7. Assessment Report 10 – 01
nical, schedule, and cost risks for the FDsys Program.    (Issued December 2, 2009)
The report provides a high-level overview of the key      Federal Digital System (FDsys) Independent
risks and issues that IV&V identified during the          Verification and Validation – Ninth Quarter
reporting period. The report also discusses IV&V          Report on Risk Management, Issues,
assessments covering FDsys security and the state         and Traceability
of program activities required for deployment per-
formed over the same time period.                         F i n di ng
                                                          This ninth quarterly report for the period July 1,
R e c om m e n dat ion
                                                          2009, through September 30, 2009, identifies criti-
The OIG made 25 recommendations designed to
                                                          cal technical, schedule, and cost risks for the FDsys
strengthen FDsys program management, particu-
                                                          Program. The report provides a high-level overview
larly for future FDsys releases.




  Search Government Publications                                                                    beta
                                                                                 Advanced Search
                                                                                 Retrieve by Citation
                                                               SEARCH            Help



  GPO’s Federal Digital System (FDsys) provides public access to
  Government information submitted by Congress and Federal
  agencies and preserved as technology changes.
                                                                               For more information on FDsys.




                                                          S e m i a n n u a l r e p o r t t o c o n g r e ss      27
     of the key risks and issues that IV&V identified dur-
     ing the reporting period. The report also discusses
     IV&V assessments covering FDsys security and the
     state of program activities required for deployment
     performed over the same time period.
     R e c om m e n dat ion
     The OIG made a total of 11 recommendations.
     M a n ag e m e n t C om m e n t s
     Management generally concurred with the recom-
     mendations and has either taken or proposed respon-
     sive corrective actions.
     OIG C om m e n t s
     Four recommendations remain open. The OIG and IV&V
     continue to monitor the status of their implementation.
                                                               additional improvements are needed. In addition,
     8. Assessment Report 10 – 03
     (Issued January 12, 2010)                                 many of the weaknesses identified during the FY
                                                               2007 baseline assessment still exist.
     GPO’s Compliance with the Federal Information
                                                               R e c om m e n dat ion
     Security Management Act
                                                               The OIG made a total of 21 recommendations, which,
     F i n di ng                                               if implemented, will help further move GPO toward
     FISMA requires that each executive branch agency          FISMA compliance.
     develop, document, and implement an agency-wide           M a n ag e m e n t C om m e n t s
     program for providing information security for the        GPO Management concurred with each recom-
     information and information systems that support          mendation and proposed responsive corrective
     the operations and assets of the agency, including        actions.
     those provided or managed by another agency, con-
                                                               OIG C om m e n t s
     tractor, or other source. Although a legislative branch
                                                               Management continues to work with the OIG to
     agency, GPO recognizes the need to be FISMA com-
                                                               implement corrective actions on the remaining 14
     pliant because of the services it provides, including
                                                               open recommendations.
     services to executive branch agencies.
          In FY 2007, the OIG contracted with a consult-       9. Assessment Report 10 – 05
     ing firm to perform a baseline assessment of GPO’s        (Issued March 24, 2010)
     FISMA compliance and to evaluate the design and
                                                               Federal Digital System (FDsys) Independent
     effectiveness of the controls over GPO’s informa-
                                                               Verification and Validation (IV&V) –
     tion security program, policies, and practices. We
                                                               Tenth Quarter Report on Risk Management, Issues,
     completed a full FISMA assessment in FY 2009. The
                                                               and Traceability
     assessment was performed using the most recent
     applicable FISMA requirements and guidelines              F i n di ng
     published by OMB and the National Institute of            The tenth quarterly report identifies a number of
     Standards and Technology. Significant emphasis            technical risks associated with FDsys development
     was placed on evaluating the GPO systems used             practices, system engineering, COOP, existing PTRs,
     for providing services to client agencies. The OIG        and the FDsys test program. American Systems iden-
     issued a sensitive report concluding that GPO made        tified schedule and cost risks associated with these
     some progress in complying with FISMA, but that           technical risks.




28   Off i c e o f I n s p e c t o r G e n e r a l
Table of Open Recommendations
                                                                  Number of Open                    Number of
    Audit
                                                                 Recommendations                 Months Open


    06–02 GPO Network Vulnerability Assessment                                        1                      54



    08–12 Assessment of GPO’s Transition Planning for
                                                                                      1                      24
    Internet Protocol Version 6 (IPv6)


    09–01 Federal Digital System (FDsys) Independent
    Verification and Validation (IV&V) - Fourth Quarter Report                        2                      22
    on Risk Management, Issues, and Traceability


    09–03 FDsys IV&V – Fifth Quarter Report on Risk
                                                                                      3                      21
    Management, Issues, and Traceability


    09–07 FDsys IV&V – Sixth Quarter Report on Risk
                                                                                      3                      18
    Management, Issues, and Traceability


    09–12 Federal Digital System (FDsys) Independent Veri-
    fication and Validation (IV&V) – Seventh Quarter Report                       17                         12
    on Risk Management, Issues, and Traceability


    10–01 FDsys IV&V – Ninth Quarter Report on Risk
                                                                                      4                        9
    Management, Issues, and Traceability


     10–03 GPO’s Compliance With the Federal Information
                                                                                  14                           8
     Security Management Act


     10–05 10–01 FDsys IV&V – Tenth Quarter Report on
                                                                                      3                        6
     Risk Management, Issues, and Traceability




R e c om m e n dat ion                                           inputs and PMO requirements. As a result, those
A total of six recommendations were made to                      two recommendations were no longer considered
management and were designed to mitigate risks                   applicable as a result of the change in develop-
and strengthen overall management of the FDsys                   ment approach because the PMO does not intend
program.                                                         to define a final system and completion date. Of the
M a n ag e m e n t C om m e n t s                                remaining four recommendations, three were unre-
Two of the report’s recommendations were subse-                  solved because of inadequate proposed actions by
quently closed as a result of the FDsys program’s                management.
decision to transition to an open-ended devel-                   OIG C om m e n t s
opment effort with objectives (for example, new                  Three recommendations remain open as of the end
functionality) that will be defined by stakeholder               of this reporting period.



                                                                 S e m i a n n u a l r e p o r t t o c o n g r e ss     29
  office of
  i n v e s t i g at i o n s




O
           I conducts and coordinates investigative activity related to
           fraud, waste, and abuse in GPO programs and operations.
           While concentrating our efforts and resources on major fraud
investigations, the activities investigated can include possible wrongdo-
ing by GPO contractors, employees, program participants, and others
who commit crimes against GPO.
      Investigations that uncover violations of Federal law or GPO rules or
regulations may result in administrative sanctions, civil action, and/or
criminal prosecution. Prosecutions may result in court-imposed prison
terms, probation, fines, or restitution. OI may also issue Management
Implication Reports (MIRs), which detail investigative findings that war-
rant management’s prompt attention.
      OI is responsible for investigations at all GPO locations, including
its 15 Regional Printing Procurement Offices (RPPOs) nationwide. OI
also maintains a liaison with the GPO Security Services and Uniform
Police Branch to coordinate efforts impacting law enforcement pro-
grams. Liaison is also maintained with DOJ, the OIG community, and
other investigative agencies and organizations.


A . Summary of Inve stigative Activit y
At the end of last reporting period, 22 complaints were open. OI
opened 24 new complaint files this period, 10 complaints were con-
verted to full investigations, and 10 were closed after preliminary
review with no action. Additionally, nine complaints were referred to
GPO management. At the end of the reporting period, 17 complaints
remained open.
     At the end of the last reporting period, 33 investigations were open.
During this reporting period, eight investigations were closed, and
eight investigations were opened. Three of the closed investigations
were referred to GPO management for potential administrative action.
At the end of the reporting period, 33 investigations were ongoing.
     During this reporting period, OI made nine presentations to DOJ
officials. These presentations resulted in five criminal declinations,




                   S e m i a n n u a l r e p o r t t o c o n g r e ss         31
     one criminal acceptance, and one civil accep-                 Other Investigations
     tance. Decisions by DOJ officials are pending on the          OI conducts other types of investigations that do not
     remaining two.                                                fall into one of the categories above. Examples of such
         Four IG subpoenas were issued during this                 investigations include unauthorized use/access to
     period. Documents requested included financial                GPO systems and requests for investigations by out-
     records, bid preparations, and agreements among               side entities. OI has nine open investigative matters
     contractors and/or affiliated companies.                      involving allegations of those types.


     B. T ype s of Ca se s                                         C. Summary of Inve stigative
                                                                   Accomplishments
     Procurement Fraud
     OI is responsible for identifying and investigating            Criminal and Civil Cases
     wrongdoing by GPO contractors or employees during              ●	As previously reported, an OI investigation found

     the administration of GPO contracts. Violations can              evidence that a GPO printing contractor failed to
     include false statements, false claims, product substitu-        comply with critical contract specifications and
     tion, collusive bidding, bribery, kickbacks, and financial                           submitted at least 10 invoices
     conflicts of interest. In FY 2009,                                                   to GPO. Under GPO contract
     GPO procured more than $675            The inventory of procurement fraud
                                                                                          terms, Publication 310.2,
     million in goods and services                 complaints/investigations              Clause 24(b), submission of
     through contracting. With such
                                             represents more than 50 percent of           any invoice for work com-
     vulnerability in mind, OI has                                                        pleted under a GPO contract
     continued to develop investiga-                   our active caseload.
                                                                                          is a certification that the work
     tions in the area of procurement                                 was completed in accordance with contract terms.
     fraud. The inventory of procurement fraud complaints/            The case was accepted for action by DOJ and on
     investigations represents more than 50 percent of our            June 7, 2010, and the contractor agreed to pay a
     active caseload. Including allegations in complaint sta-         $25,000 settlement of U.S. penalty claims without
     tus, OI has 26 open procurement matters.                         admitting wrongdoing or liability. Final debar-
     Workers’ Compensation Fraud                                       ment action against the contractor is pending.

     OI investigates GPO employees who allegedly submit            	 OI continues an investigation into allegations of
                                                                   ●


     false claims or make false statements to receive work-          false statements, false claims, forgery, and/or bid
     ers’ compensation benefits. We are working on five              collusion by GPO print vendors. OI has the assis-
     investigative matters (complaints and investigations)           tance of the DOJ Antitrust Division, which is in the
     involving possible fraudulent claims for workers’               process of negotiating a criminal plea agreement
     compensation. Two of those cases are being worked               with one of the subjects involved.
     jointly with the Office of Inspector General for the          	OI continues an investigation of allegations relat-
                                                                   ●

     Department of Labor.                                           ing to false statements and/or false claims to GPO.
     Employee Misconduct                                            The DOJ Antitrust Division is evaluating this case
                                                                    for possible criminal and/or civil action.
     OI investigates allegations involving GPO employee
     misconduct. Allegations generally include false               	As previously reported, an investigation of a printing
                                                                   ●



     statements, theft of Government property or funds,             contractor determined GPO paid more than $175,000
     assaults, misuse of Government computers, drug                 after the company submitted delivery receipts and
     violations, gambling, and travel voucher fraud. OI             invoices for payment, but the contractor failed to per-
     has seven open investigations and three preliminary            form according to specifications and did not deliver
     complaints involving alleged employee misconduct.              all products. Although DOJ previously declined the




32   Off i c e o f I n s p e c t o r G e n e r a l
    case for criminal prosecution, the case was accepted    	As previously reported, an OI investigation
                                                            ●


    this reporting period for civil resolution. Coordina-    regarding the possible physical assault of a GPO
    tion is ongoing with DOJ.                                contractor by a GPO employee was referred to
	 We previously reported that an OI investigation of
●
                                                             agency management for administrative action.
  overbilling by a GPO print contractor was accepted         The conduct of the employee toward the contrac-
  for potential civil action by DOJ. The investiga-          tor (captured on surveillance video) was deemed
  tion determined that from February 2002 until              inappropriate, and the employee received a 3-day
  February 2004 the president of the company over-           suspension.
  billed GPO approximately $499,000. During this            	 We previously reported that OI substantiated alle-
                                                            ●


  reporting period, the supporting civil Assistant            gations that an employee was using GPO equip-
  U.S. Attorney submitted a motion for default judg-          ment to copy and sell digital video discs (DVDs)
  ment. Final adjudication is pending.                        during work hours. DOJ declined the matter, and
                                                              OI referred the case to management for action. The
Internal Administrative Cases
                                                              Agency considered the behavior inappropriate and
	As previously reported, OI investigated allegations
●                                                             imposed a 3-day suspension.
 that a GPO employee used or attempted to use her           	OI investigated allegations that a GPO employee
                                                            ●

 position for personal financial gain and to benefit         used a duplicate GPO identif ication badge
 close friends. This joint investigation with the DOJ        to engage in time and attendance fraud. The
 Public Integrity Section included numerous inter-           employee attempted to gain access to GPO using
 views, records reviews, and analysis by an inde-            an expired badge and when denied entry, pro-
 pendent subject matter expert. DOJ declined pros-           duced a valid badge that had been brought to her
 ecution and the investigative results were referred         by a co-worker. OI found that the employee did
 to management, who terminated the employee.                 in fact have two badges and that on at least three




                                                            S e m i a n n u a l r e p o r t t o c o n g r e ss     33
         occasions she had a co-worker perform a Produc-      External Administrative Cases
         tion Reporting for Operations, Budgeting, and
                                                              	 OI referred to GPO management information dis-
                                                              ●
         Expenditures (PROBE) (a system used to record
                                                                covered during an investigation of allegations that
         daily employee time and attendance) transaction
                                                                an individual was associated with several GPO print
         with her valid badge 30 minutes before her arrival
                                                                contractors and may have provided false informa-
         at work. When interviewed, the subject of this
                                                                tion on vendor applications submitted to GPO. The
         investigation initially provided false statements
                                                                investigation substantiated that although the indi-
         to the GPO Uniform Police Branch and OI. She
                                                                vidual was associated with the several GPO contrac-
         ultimately confessed, however, after being con-
                                                                tors, no evidence existed that the employee submit-
         fronted with the evidence. This case was declined
                                                                ted multiple bids from multiple contractors on the
         by DOJ for prosecution and was referred to man-
                                                                same solicitation.
         agement for administrative action.
                                                              	OI also referred information to GPO manage-
                                                              ●
     	OI investigated suspicions that a GPO employee
     ●
                                                               ment that an individual submitted two bids for
      was dealing drugs and had a firearm on GPO prop-
                                                               the same contract under the names of two differ-
      erty. The investigation disclosed the employee had
                                                               ent contractors. The investigation determined
      recently been convicted of drug and weapons-
                                                               that although neither contractor was awarded
      related offenses. Although the investigation did
                                                               the job, the individual was associated with sev-
      not substantiate that the employee had been deal-
                                                               eral GPO contractors. Further investigation did
      ing drugs on GPO property, the employee was dis-
                                                               not identify any other instances where the indi-
      honest with investigators when questioned about
                                                               vidual submitted two or more bids for the same
      the circumstances of his drug arrest. As a result
                                                               GPO solicitation.
      of the drug conviction and his lack of candor, the
      employee was terminated from his position with          	As a result of an investigation into allegations a
                                                              ●


      the GPO. The employee appealed the removal, but          company was acting as a broker for at least four
      in September 2010, the Merit Systems Protection          print contractors in violation of GPO Contract
      Board upheld the removal.                                Terms, OI referred information to GPO manage-
                                                               ment. OI found the company attempted to broker
     	An OI investigation of a GPO employee determined
     ●
                                                               at least one GPO contract; however, there was no
      the individual, by her own admission, knowingly
                                                               evidence the company had ever been awarded any
      misused GPO’s FedEx account to ship several pri-
                                                               GPO contracts.
      vate packages over the course of several years. The
      misconduct resulted in minimal loss to GPO and          	 Finally, OI referred to the GPO Office of General
                                                              ●


      DOJ declined the case for prosecution. The inves-         Counsel the findings of an investigation into alle-
      tigation was subsequently referred to management          gations that a GPO contractor submitted invoices
      who have proposed a 10-day suspension.                    to GPO before shipping the finished product to
                                                                the customer. The investigation substantiated
     	OI investigated allegations that two GPO super-
     ●
                                                                that the contractor submitted a false invoice
      visors were unfairly and inequitably allocating
                                                                indicating that the product had been shipped,
      overtime hours to themselves. The investigation
                                                                when in fact the materials were not shipped until
      did not find evidence supporting the allegations,
                                                                almost 3 weeks later.
      but did determine the supervisors were working
      substantive overtime hours to complete work that        Miscellaneous Cases
      could be accomplished by their subordinates.
                                                              	OI investigated allegations by a GPO employee that
                                                              ●
      Specific findings were referred to management
                                                               she was wrongfully arrested by the GPO Uniform
      and to OAI for evaluation as part of an ongoing
                                                               Police Branch for assaulting another employee. The
      audit of the GPO payroll system.
                                                               arrested employee further alleged that the arrest was




34   Off i c e o f I n s p e c t o r G e n e r a l
racially biased and handled in an unprofessional         ●   	OI investigated allegations that a former OIG
manner. The OI investigation found no evidence                employee ordered and distributed seven sets
that the employee was wrongfully arrested. The Uni-           of honorary badges and credentials. OI became
form Police Branch supervisor ordering the arrest             aware of the badges and credentials after being
discussed the arrest with superiors and they agreed           contacted by a law enforcement official who
with the supervisor’s decision to arrest the employee         retrieved one during execution of a search war-
for simple assault under D.C. Code § 22-404. Fur-             rant. The subject of the search warrant informed
ther, OI did not find any indication of racial bias.          OI that he was asked by the former OIG employee
The findings of this investigation were also referred         to print some honorar y credentials. OI con-
to Uniform Police Branch management, and it was               ducted numerous interviews and was able to
recommended that the Uniform Police Branch and                retrieve two more sets of honorary badges and
the Office of General Counsel work to expeditiously           credentials. The former employee was located in
approve and implement General Orders and a Mem-               another state, but he was unwilling to cooperate
orandum of Understanding with the Washington,                 with OI. Ultimately, OI determined the disposi-
D.C., Metropolitan Police Department. The OIG rec-            tion of the remaining four sets of credentials, but
ommended that management in the Uniform Police                because the former employee was unwilling to
Branch address any conflicts between branch super-            cooperate, it could not identify the individuals
visors and subordinate officers to foster professional        to whom the badges and credentials were given.
behavior and clearly define a chain of command.               DOJ declined the case for prosecution.




                                                         S e m i a n n u a l r e p o r t t o c o n g r e ss         35
     D. Other Significant Activitie s                            how post-consumer waste paper becomes pulp
                                                                 used as a component in the recycled paper used
     We continue other efforts to improve our abil-
                                                                 for Federal printing. The same OI and OAI per-
     ities to detect, prevent, and investigate the loss of
                                                                 sonnel then visited a paper mill and witnessed
     Government assets. The following summarizes other
                                                                 first hand how a modern paper mill operates. The
     significant activities occurring in OI:
                                                                 tour highlighted how paper mills alter produc-
     	Members of OI and OAI staff attended train-
     ●
                                                                 tion recipes to produce different paper types and
      ing on paper specifications and testing that the           specifications. This tour familiarized OI and OAI
      GPO Quality Control and Inventory Manage-                  personnel with the paper manufacturing process
      ment Branch presented. The training focused on             and raw materials used.
      how paper is produced and how different types
                                                             	 Special Agents in OI are Federal Criminal Inves-
                                                             ●
      and specifications of paper are coded by the Joint
                                                               tigators (general schedule job series 1811) and
      Committee on Printing. Information was also
                                                               are designated as Special Police Officers by the
      presented about the various types of pulp used
                                                               Public Printer. This reporting period, all gen-
      in producing paper. Special attention was given
                                                               eral schedule 1811 Criminal Investigators were
      to the process by which recycled paper becomes
                                                               granted special deputation by the U.S. Marshals
      post- consumer waste pulp, which is a required
                                                               Service. Over the last 2 years, OI has continued
      component in a significant percentage of the
                                                               to develop an inventory of complex criminal and
      paper used in Federal printing. The training pro-
                                                               civil investigations requiring nationwide travel
      vided valuable information about ongoing prod-
                                                               and frequent coordination with DOJ. The addi-
      uct substitution investigations and potential joint
                                                               tional authority granted through special depu-
      OI/OAI initiatives.
                                                               tation will allow OI to independently investigate
     	Personnel from OI and OAI also toured a de-ink-
     ●
                                                               contractors throughout the United States and act
      ing and post-consumer waste pulp production              as the lead agency when executing search and
      facility. The tour provided in-depth exposure on         arrest warrants.




36   Off i c e o f I n s p e c t o r G e n e r a l
a ppen dices




APPENDIX A
Glossary and Acronyms

Glossary
     Allowable Cost - A cost necessary and reasonable for the proper
and efficient administration of a program or activity.
     Change in Management Decision - An approved change in the
originally agreed-upon corrective action necessary to resolve an IG
recommendation.
     Disallowed Cost - A questionable cost arising from an IG audit
or inspection that management decides should not be charged to the
Government.
     Disposition - An action that occurs from management’s full
implementation of the agreed-upon corrective action and identifica-
tion of monetary benefits achieved (subject to IG review and approval).
     Final Management Decision - A decision rendered by the GPO
Resolution Official when the IG and the responsible GPO manager are
unable to agree on resolving a recommendation.
     Finding - Statement of problem identified during an audit or
inspection typically having a condition, cause, and effect.
     Follow-up - The process that ensures prompt and responsive
action once resolution is reached on an IG recommendation.
     Funds Put To Better Use - An IG recommendation that funds
could be used more efficiently if management took actions to imple-
ment and complete the audit or inspection recommendation.
     Management Decision - An agreement between the IG and
management on the actions taken or to be taken to resolve a rec-
ommendation. The agreement may include an agreed-upon dollar
amount affecting the recommendation and an estimated comple-
tion date unless all corrective action is completed by the time agree-
ment is reached.
     Management Implication Report - A report to management
issued during or at the completion of an investigation identifying




                 S e m i a n n u a l r e p o r t t o c o n g r e ss       37
     systemic problems or advising management of sig-
     nificant issues that require immediate attention.
          Material Weakness - A significant deficiency, or
     combination of significant deficiencies, that results
     in more than a remote likelihood that a material mis-
     statement of the financial statements will not be pre-
     vented or detected.
          Questioned Cost - A cost the IG questions
     because of an alleged violation of a law, regulation,
     contract, cooperative agreement, or other document
     governing the expenditure of funds; such cost is not
     supported by adequate documentation; or the expen-
     diture of funds for the intended purposes was deter-
     mined by the IG to be unnecessary or unreasonable.
          Recommendation - Actions needed to correct or
     eliminate recurrence of the cause of the finding iden-
     tified by the IG to take advantage of an opportunity.
          Resolution - An agreement reached between the
     IG and management on the corrective action or upon
     rendering a final management decision by the GPO
     Resolution Official.
          Resolution Official - The GPO Resolution
     Official is the Deputy Public Printer.
          Resolved Audit/Inspection - A report contain-
     ing recommendations that have all been resolved
     without exception, but have not yet been imple-
     mented.
          Unsupported Costs - Questioned costs not
     supported by adequate documentation.




38   Off i c e o f I n s p e c t o r G e n e r a l
Abbreviations and Acronyms
AICPA	American Institute of Certified Public              IPA	Independent Public Accountant
         Accountants                                      IPv6	Internet Protocol version 6
CA	Certification Authority                                IT	Information Technology
CIGIE	Council of Inspectors General on                    IT&S	Information Technology and Systems
         Integrity and Efficiency                         IV&V	I n d e p e n d e n t Ve r i f i c a t i o n a n d
CMS	Center for Medicare and Medicaid                            Validation
         Services                                         MIR	Management Implication Report
CPS	Certification Practices Statement                     OA	Organization Architects
COA	Continuity of Access                                  OALC	Of f ice of Ad m i n ist rat ion/L ega l
COOP	Continuity of Operations                                   Counsel
COTR	Contracting Officer’s Technical                      OAI	Office of Audits and Inspections
         Representative                                   OGC	Office of General Counsel
DE	      Delegated Examining                              OI	Office of Investigations
DHS/CPB	 Department of Homeland Security/                 OIG	Office of Inspector General
         Customs and Border Patrol                        OMB	Office of Management and Budget
FDsys	   Federal Digital System                           OPM	Office of Personnel Management
FISMA	   Federal Information Security                     OWC	Office of Workers’ Compensation
         Management Act                                   PII	Personally Identifiable Information
FY	      Fiscal Year                                      PKI	Public Key Infrastructure
GAO	Government Accountability Office                      PO	Privacy Officer
GBIS	GPO’s Business Information System                    PPPS	Passport Printing and Production
GPO	U.S. Government Printing Office                             System
HSPD-12	 Homeland Securit y President ial                 PTR	Problem Tracking Report
         Directive-12                                     RPPO	Regional Printing Procurement Office
ICAO	I n t e r n a t i o n a l C i v i l Av i a t i o n   SAS	  Statement on Auditing Standards
         Organization                                     SCC	  Secure Credential Center
IG 	Inspector General                                     SID	  Security and Intelligent Documents
IG ACT	GPO Inspector General Act, as                      SPF	  Secure Production Facility
         amended                                          TTP	Trusted Traveler Program




                                                          S e m i a n n u a l r e p o r t t o c o n g r e ss        39
     APPENDIX B
     Inspector General Act Reporting Requirements

         Inspector General                                                                   Cross-Reference
                                    Requirement Definition
         (IG) Act Citation                                                                    Page Number(s)



         Section 4(a)(2            Review of Legislation and Regulations                                   8




         Section 5(a)(1)           Significant Problems, Abuses, and Deficiencies                      22–29




         Section 5(a)(2)           Recommendations for Corrective Actions                              22–29




         Section 5(a)(3)           Prior Audit Recommendations Not Yet Implemented                     24–29




         Section 5(a)(4)           Matters Referred to Prosecutorial Authorities                       32–35




         Section 5(a)(5)           Summary of Refusals to Provide Information                            N/A


                                   OIG Audit and Inspection Reports Issued (includes total
         Sections 5(a)(6) and
                                   dollar values of Questioned Costs, Unsupported Costs,               22–24
         5(a)(7)
                                   and Recommendations that Funds Be Put To Better Use


                                   Statistical table showing the total number of audit
         Section 5(a)(8)                                                                                  41
                                   reports and the total dollar value of questioned costs


                                   Statistical table showing the total number of audit
         Section 5(a)(9)           reports and the dollar value of recommendations that                   42
                                   funds be put to better use


                                   Summary of prior Audit and Inspection Reports issued
         Section 5(a)(10)                                                                                N/A
                                   for which no management decision has been made	


                                   Description and explanation of significant revised man-
         Section 5(a)(11)                                                                                N/A
                                   agement decision


                                   Significant management decision with which the IG is in
         Section 5(a)(12)                                                                               N/A
                                   disagreement



         48Section 5 (a) (14–16)   Peer Review Results                                                47–48



40   Off i c e o f I n s p e c t o r G e n e r a l
APPENDIX C
Statistical Reports
Table C–1: Audit Reports With Questioned and Unsupported Costs


                                               Questioned     Unsupported
    Description                                                                              Total
                                                   Costs               Costs


    Reports for which no management decision
    made by beginning of reporting period              $0                  $0                    $0




    Reports issued during reporting period             $0                  $0                    $0




    Subtotals                                          $0                  $0                    $0




    Reports for which a management decision
    made during reporting period
      1. Dollar value of disallowed costs              $0                  $0                    $0
      2. Dollar value of allowed costs                 $0                  $0                    $0




    Reports for which no management decision
                                                                           $0
    made by end of reporting period                    $0                                        $0



    Reports for which no management decision
    made within 6 months of issuance                   $0                  $0                    $0




                                                      S e m i a n n u a l r e p o r t t o c o n g r e ss   41
     Table C–2 : Audit Reports With Recommendations That Funds
     Be Put to Better Use


                                              Number of   Funds Put To
         Description
                                               Reports     Better Use




         Reports for which no management
         decision made by beginning of
                                                      0             $0
         reporting period




         Reports issued during the
                                                      0             $0
         reporting period




         Reports for which a management
         decision made during reporting
         period
         ●  ollar value of recommendations
           D                                          0             $0
           agreed to by management
         ● 
           Dollar value of recommendations            0             $0
           not agreed to by management




         Reports for which no management
         decision made by the end of the
                                                      0             $0
         reporting period




         Report for which no management
         decision made within 6 months of
                                                      0             $0
         issuance




42   Off i c e o f I n s p e c t o r G e n e r a l
Table C–3 : List of Audit and Inspection Reports Issued
During Reporting Period


                                                               Funds Put To
    Reports
                                                                Better Use



    Report on Federal Digital System (Fdsys) Independent
    Verification and Validation – Eleventh Quarter Report on
    Risk Management, Issues, and Traceability
    (Assessment Report 10–07, issued June 18, 2010)                      $0




    Report on Federal Digital System (Fdsys) Independent
    Verification and Validation – Twelfth Quarter Report on
    Risk Management, Issues, and Traceability
                                                                         $0
    (Assessment Report 10–08, issued September 16, 2010)




    Report on WebTrust Assessment of GPO’s Public
    Key Infrastructure Certification Authority – Attestation
    Report (Assessment Report 10–09, issued September
                                                                         $0
    20, 2010)




    Total                                                                $0




                          S e m i a n n u a l r e p o r t t o c o n g r e ss   43
     Table C– 4 : Investigations Case Summary


         Total New Hotline/Other Allegations Received during
         Reporting Period                                      43



         No Formal Investigative Action Required                6



         Investigations Opened by OI during                     8
         Reporting Period


         Investigations Open at Beginning of                   33
         Reporting Period


         Investigations Closed during Reporting Period          8



         Investigations Open at End of Reporting Period        33



         Referrals to GPO Management                           12



         Referrals to Other Agencies                            5



         Referrals to OAI                                       2




44   Off i c e o f I n s p e c t o r G e n e r a l
Current Open Investigations by Allegation            33



Procurement Fraud                                    20            61%



Employee Misconduct                                   7            21%



Workers’ Compensation Fraud                           3            9%



Other Investigations                                  2            9%




                                            ■■  Procurement Fraud
                                            ■■  Employee Misconduct
                                            ■■  Workers’ Compensation Fraud


                                            ■■  Other Investigations




                       S e m i a n n u a l r e p o r t t o c o n g r e ss     45
     Table C–5 : Investigations Productivity Summary

         Arrests	                                                    0

         Total Presentations to Prosecuting Authorities	             9

         Criminal Acceptances	                                       1

         Criminal Declinations	                                      5

         Indictments	                                                0

         Convictions	                                                0

         Guilty Pleas	                                               0

         Probation (months)	                                         0

         Jail Time (days)	                                           0

         Civil Restitutions	                                         0

         Civil Acceptances	                                          1

         Civil Agreements	                                           1

         Civil Declinations	                                         0

         Amounts Recovered Through Investigative Efforts	            0

         Total Agency Cost Savings Through Investigative Efforts	    0

         Total Administrative Referrals	                            12

         Contractor Debarments	                                      0

         Contractor Suspensions	                                     0

         Contractor Other Actions	                                   0

         Employee Suspensions	                                       5

         Employee Terminations	                                      1

         Other Law Enforcement Agency Referrals	                     5




46   Off i c e o f I n s p e c t o r G e n e r a l
APPENDIX D                                               February 5, 2005, was in full compliance with the qual-
                                                         ity standards established by the President’s Council on
Peer Review Results
                                                         Integrity and Efficiency (PCIE)/Executive Council on
This appendix complies with Section 5(a)(14)-(16) of     Integrity and Efficiency (ECIE). The safeguards and
the IG Act of 1978, as amended.                          procedures provide reasonable assurance of conform-
                                                         ing with professional standards in the conduct of its
A. Peer Review of the Audit Function
                                                         investigations. There are no outstanding recommen-
In November 30, 2006, t he Nat iona l Science
                                                         dations from that peer review.
Foundation (NSF) OIG issued a Peer Review Report of
                                                               The GPO OIG investigation function will undergo
the GPO OIG audit function. The NSF OIG found that
                                                         a peer review during this upcoming reporting period.
the system of quality control for the audit function
at the GPO OIG in effect for the year ending March       C. External Peer Reviews
31, 2006, met the requirements of the quality control    In 2008, the GPO OIG conducted two external peer
standards established by the Comptroller General         reviews of the audit and investigative functions of
of the United States for a Federal Government audit      the Board of Governors of the Federal Reserve System
organization and complied with during the year end-      (Board) OIG. On March 31, 2008, the GPO OIG issued
ing March 31, 2006, provided GPO with reasonable         an Investigative Peer Review report. We found that
assurances of conforming with applicable auditing        the system of internal safeguards and management
standards, policies, and procedures.                     procedures for the investigative function of the Board
     The NSF OIG recommended that GPO OIG                OIG in effect for the period ended January 10, 2008, is
request an interim peer review or conduct a compre-      in compliance with the quality standards established
hensive internal quality control review of its audit     by the PCIE/ECIE, Special Deputation U.S. Marshal
operations under its new audit policy and proce-         authority, or the Attorney General Guidelines for
dures manual (issued in July 2006), but due to inad-     Office of Inspectors General with Statutory Law
equate resources, was not able to conduct a compre-      Enforcement Authority. These safeguards and pro-
hensive internal quality control review. The GPO OIG     cedures provide reasonable assurance of conform-
audit function will undergo a peer review during this    ing with professional standards in the conduct of
upcoming reporting period.                               Board OIG investigations. No recommendations were
                                                         issued in this report.
B. Peer Review of the Investigation
                                                               On September 4, 2008, the GPO OIG issued an
Function
                                                         Audit Peer Review report. We found that the qual-
The GPO does not derive its statutory law enforce-
                                                         ity control system for the audit function of the Board
ment power from Section 6(e) of the IG Act of 1978,
                                                         OIG in effect for the 18-month period ending March
as amended; therefore it is not required to undergo
                                                         31, 2008, met the requirements of the quality control
an external peer review of its investigation function.
                                                         standards established by the Comptroller General
Nevertheless, the OIG voluntarily requests such
                                                         of the United States for a Federal Government audit
external peer reviews.
                                                         organization and complied with during the year
     The Farm Credit Administration (FCA) OIG con-
                                                         ending March 31, 2008, provided the Board OIG with
ducted the last peer review of the GPO OIG investi-
                                                         reasonable assurances of conforming with appli-
gation function and issued its opinion on June 1,
                                                         cable auditing standards, policies, and procedures.
2005. The FCA OIG found that the system of inter-
                                                         There are no outstanding recommendations from
nal safeguards and management procedures for the
                                                         this peer review report.
investigative function in effect for the period ending




                                                         S e m i a n n u a l r e p o r t t o c o n g r e ss        47
     U.S. Government Printing Office
       Office of Inspector General
732 North Capitol Street, NW, Washington, D.C. 20401
          202.512.0039 • www.gpo.gov/oig
OIG Hotline 1.800.743.7574 • gpoighotline@gpo.gov
